<html>
<title> - HEARING ON H.R. 146, H.R. 182, AND H.R. 601</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
              HEARING ON H.R. 146, H.R. 182, AND H.R. 601

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 13, 2001

                               __________

                            Serial No. 107-4

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ---------

                   U.S. GOVERNMENT PRINTING OFFICE
71-154                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
C.L. "Butch" Otter, Idaho            Betty McCollum, Minnesota
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
VACANCY

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 13, 2001...................................     1

Statement of Members:
    Christensen, Hon. Donna, a Delegate to Congress from the 
      Virgin Islands, Prepared statement on H.R. 146, H.R. 182 
      and H.R. 601...............................................    70
    Corzine, Hon. Jon S., a U.S. Senator from the State of New 
      Jersey, Statement submitted for the record on H.R. 146.....    12
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement on H.R. 146, H.R. 182 and H.R. 601....    12
    Pallone, Hon. Frank, Jr. a Representative in Congress from 
      the State of New Jersey, Prepared statement on H.R. 146....    71
    Pascrell, Hon. Bill, Jr., a Representative in Congress from 
      the State of New Jersey....................................    13
        Prepared statement on H.R. 146...........................    16
    Simmons, Hon. Rob, a Representative in Congress from the 
      State of Connecticut.......................................    17
        Prepared statement on H.R. 182...........................    19
        Letters submitted for the record on H.R. 182.............    20
    Simpson, Hon. Mike, a Representative in Congress from the 
      State of Idaho.............................................    73
        Prepared statement on H.R. 601...........................    74
        Letters submitted for the record on H.R. 601.............   133
    Torricelli, Hon. Robert G., a U.S. Senator from the State of 
      New Jersey, Statement submitted for the record on H.R. 146.    13

Statement of Witnesses:
     Clower, Don, Idaho Fish and Game Commission, Meridian, ID...    78
        Prepared statement on H.R. 601...........................    79
     DiIanni Pat, President, Vision 20/20, Hawthorne, NJ.........    99
        Prepared statement on H.R.146............................   100
     Doddridge, Joseph E., Acting Assistant Secretary for Fish 
      and Wildlife and Parks, Department of the Interior, 
      Washington, DC.............................................    81
        Prepared statement on H.R. 146...........................    83
        Prepared statement on H.R. 182...........................    85
        Prepared statement on H.R. 601...........................    85
        Response to questions submitted for the record...........   157
    Dopirak Anna-Lisa, Director, Community Development for the 
      City of Paterson, Paterson, NJ.............................    94
        Prepared statement on H.R. 146...........................    97
    Fisher, Jack W., Idaho Wildlife Federation, Nampa, ID........    75
        Prepared statement on H.R. 601...........................    77
    Frohling Nathan M., Program Director, The Nature Conservancy, 
      Middletown, CT.............................................   102
        Prepared statement on H.R. 182...........................   104
    Merrow, Susan, First Selectman, Town of East Haddam, 
      Connecticut................................................   116
        Prepared statement on H.R. 182...........................   117

Additional materials supplied:
    DiFrancesco, Hon. Donald T., Acting Governor, State of New 
      Jersey, Letter submitted for the record on H.R. 146........   139
    Fennell, Rosalyn J., and Chandler, William J., Letter on H.R. 
      601 submitted for the record by The Wilderness Society.....   145
    Filippone, Dr. Ella F., Executive Administrator, Passaic 
      River Coalition, Basking Ridge, NJ, Statement 
      <plus-minus>submitted for the record on H.R. 146...........   140
    Goldsmith, Bhanu, Letter on H.R. 146 submitted for the record 
      by The Honorable Bill Pascrell, Jr.........................   147
    Kubofcik, Hon. William, Resolution on H.R. 146 submitted for 
      the record by The Honorable Bill Pascrell, Jr..............   148
    Mallik, Arjun, Letter on H.R. 146 submitted for the record by 
      The Honorable Bill Pascrell, Jr............................   149
    Passaic County Board of Chosen Freeholders Resolution on H.R. 
      146 submitted for the record by The Honorable Bill 
      Pascrell, Jr...............................................   150
    Pou, Assemblywoman Nellie, Letter on H.R. 146 submitted for 
      the record.................................................   155
    Smyk, Edward A., Passaic County Historian, Paterson, NJ, 
      Letter submitted for the record on H.R. 146................   128
    Sunday, Nick, Director, The Alexander Hamilton National 
      Memorial, New York, NY, Letter submitted for the record on 
      H.R. 146...................................................   142
    Text of H.R. 146.............................................     3
    Text of H.R. 182.............................................     6
    Text of H.R. 601.............................................     9


  HEARING ON H.R. 146, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
 STUDY THE SUITABILITY AND FEASIBILITY OF DESIGNATING THE GREAT FALLS 
 HISTORIC DISTRICT IN PATERSON, NEW JERSEY, AS A UNIT OF THE NATIONAL 
 PARK SYSTEM, AND FOR OTHER PURPOSES; H.R. 182, TO AMEND THE WILD AND 
SCENIC RIVERS ACT TO DESIGNATE A SEGMENT OF THE EIGHTMILE RIVER IN THE 
 STATE OF CONNECTICUT FOR STUDY FOR POTENTIAL ADDITION TO THE NATIONAL 
WILD AND SCENIC RIVERS SYSTEM, AND FOR OTHER PURPOSES; AND H.R. 601, TO 
ENSURE THE CONTINUED ACCESS OF HUNTERS TO THOSE FEDERAL LANDS INCLUDED 
 WITHIN THE BOUNDARIES OF THE CRATERS OF THE MOON NATIONAL MONUMENT IN 
   THE STATE OF IDAHO PURSUANT TO PRESIDENTIAL PROCLAMATION 7373 OF 
   NOVEMBER 9, 2000, AND TO CONTINUE THE APPLICABILITY OF THE TAYLOR 
GRAZING ACT TO THE DISPOSITION OF GRAZING FEES ARISING FROM THE USE OF 
                  SUCH LANDS, AND FOR OTHER PURPOSES.

                              ----------                              


                        Tuesday, March 13, 2001

                        House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in Room 
1324 Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    The committee will come to order. Good afternoon and 
welcome to the hearing today. This afternoon, the Subcommittee 
on National Parks, Recreation, and Public Lands will hear 
testimony on three bills, H.R. 146, H.R. 182 and H.R. 601.
    H.R. 146 was introduced by Congressman Bill Pascrell of New 
Jersey. This bill would authorize the Secretary of the Interior 
to study the suitability and feasibility of designating the 
Great Falls Historic District in Paterson, New Jersey, as a 
unit of the National Park System.
    H.R. 182 was introduced by Congressman Rob Simmons of 
Connecticut. This bill would amend the Wild and Scenic Rivers 
Act to designate a segment of Eightmile River in the State of 
Connecticut for study for potential addition to the National 
Wild and Scenic Rivers System.
    Lastly, H.R. 601 was introduced by Congressman Mike Simpson 
of Idaho. This bill would ensure that hunters enjoy continued 
access to Federal lands included within the expanded boundaries 
of the Craters of the Moon National Monument in the State of 
Idaho. Last November, the Clinton Administration expanded the 
monument through a Presidential proclamation from 54,000 acres 
to add an additional 661,000 acres. The effect of the 
Administration's action was to close approximately 410,000 
acres to hunting.
    This bill would reopen the closed areas to hunting. The 
bill would also provide that the Taylor Grazing Act would 
control the manner in which grazing fees arising from the use 
of the land within the expanded boundaries of the monument are 
distributed.
    [The texts of H.R. 146, H.R. 182, and H.R. 601 follow:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hefley. I would like to thank all of our witnesses for 
being here today to testify on these bills, and since I have no 
ranking member, we are going to go directly to the first panel.
    [The prepared statement of Mr. Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
National Parks, Recreation and Public Lands, on H.R. 146, H.R. 182 and 
                                H.R. 601

    Good afternoon and welcome to the hearing today. This afternoon, 
the Subcommittee on National Parks, Recreation and Public Lands will 
hear testimony on three bills H.R. 146, H.R. 182 and H.R. 601.
    H.R. 146 was introduced by Congressman Bill Pascrell of New Jersey. 
This bill would authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the Great Falls Historic 
District in Paterson, New Jersey, as a unit of the National Park 
System.
    H.R. 182 was introduced by Congressman Rob Simmons of Connecticut. 
This bill would amend the Wild and Scenic Rivers Act to designate a 
segment of the Eightmile River in the State of Connecticut for study 
for potential addition to the National Wild and Scenic Rivers System.
    Last, H.R. 601 was introduced by Congressman Mike Simpson of Idaho. 
This bill would ensure that hunters enjoy continued access to Federal 
lands included within the expanded boundaries of the Craters of the 
Moon National Monument in the State of Idaho. Last November, the 
Clinton Administration expanded the monument through a Presidential 
Proclamation from 54,000 acres to add an additional 661,000 acres. The 
effect of the Administration's action was to close approximately 
410,000 acres to hunting. This bill would reopen the closed areas to 
hunting. The bill would also provide that the Taylor Grazing Act would 
control the manner in which grazing fees arising from the use of the 
land within the expanded boundaries of the monument are distributed.
    I'd like to thank all of our witnesses for being here today to 
testify on these bills and now turn the time remaining over to the 
Ranking Member, Ms. Christensen.
                                 ______
                                 
    [The prepared statements of Senator Corzine and Senator 
Torricelli follow:]

 STATEMENT OF THE HONORABLE JON S. CORZINE, U.S. SENATOR, STATE OF NEW 
                           JERSEY ON H.R. 146

    Mr. Chairman, thank you for this opportunity to submit written 
testimony in support of this bill, which authorizes the National Park 
Service to assess the potential for incorporating the Great Falls 
Historic District in Paterson, New Jersey, as a unit of our National 
Park System. I am a co-sponsor of the Act with Senator Robert 
Torricelli in the Senate and Congressman Bill Pascrell in the House. 
Please enter this testimony into the record.
    In 1976, when Congress designated the Great Falls area as a 
National Historic District, it recognized Paterson's singular history 
as the cradle of American industry and invention. Planned by Alexander 
Hamilton, Paterson has played a unique role in the story of working 
people in this country. American industry and American labor are rooted 
here. This is the home of technological and social innovation in the 
United States, and this legislation will determine the best way to 
create living history out of this special resource.
    The study we are requesting is a logical extension of the 
commitment Congress has already made to restoring the Great Falls and 
making it accessible to all our citizens. It builds on the 1976 
designation and the Federal Urban History Initiative (UHI) that my 
predecessor, Senator Frank Lautenberg, authored in 1991.
    The City of Paterson and the National Park Service have a long 
history of working together to implement the kind of restoration, 
envisioned in those earlier initiatives, that will let history live on 
in our generation and the generations to follow. I am confident your 
Committee will concur that authorization of the Great Falls Historic 
District Study Act of 2001 is essential to enhancing the heritage that 
built our country and sustains it to this day.
    Again, Mr. Chairman, thank you for the opportunity to submit this 
written testimony.
                                 ______
                                 

STATEMENT OF THE HONORABLE ROBERT G. TORRICELLI, U.S. SENATOR, STATE OF 
                        NEW JERSEY, ON H.R. 146

    Thank you Chairman Hansen, Ranking Member Rahall, and members of 
the Resources Committee (Committee) for the opportunity to testify 
before the Committee on H.R. 146, legislation introduced by Congressman 
Bill Pascrell to authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the Great Falls Historic 
District in Paterson, New Jersey, as a unit of the National Park System 
(NPS).
    I have introduced similar legislation in the Senate, with my 
colleague from New Jersey, Mr. Corzine, and am seeking hearings on my 
bill, S. 386. These important bills recognize the historical 
significance of the Great Falls area in Paterson, New Jersey, and I am 
hopeful that our colleagues in both chambers join us in support of this 
effort.
    Paterson is known as America's first industrialized city. Alexander 
Hamilton founded Paterson in 1792 as a mercantile private-public 
partnership, using the powerful falls to power industry. He built a 
laboratory, and established the Society for the Establishment of Useful 
Manufactures which actively promoted the textiles industry. Textiles 
were a large part of the development of industry in Paterson, once 
known as the Silk City, and regarded as the center of the textile 
industry for many years.
    New and developing industries located to Paterson and contributed 
to the growth of the city. New immigrants, arriving at nearby Ellis 
Island, settled in Paterson, and provided the workforce necessary for 
this newly industrialized city to thrive.
    Rich in history, the Paterson Great Falls is also endowed with 
natural beauty. The Great Falls is an island of beauty in a sea of 
urban development. The Great Falls is the second largest waterfall on 
the East Coast, and attracts visitors from within and outside of New 
Jersey.
    Paterson Great Falls is also an educational tool for New Jersey's 
children. Students young and old travel to Paterson Great Falls to 
witness its natural splendor, to learn about the industrial revolution, 
and the pioneers who helped build our nation.
    This area is truly a valuable asset to the State of New Jersey, and 
I feel it is only proper to share this wonderful resource with the 
entire nation by establishing the Paterson Great Falls as a unit of the 
National Park System (NPS).
    The Federal Government has already acknowledged the significance of 
Great Falls, by designating the area a national historic landmark. 
Establishing it as a unit of the NPS would increase the presence of 
Great Falls, and the NPS would provide staff and tours, and allow for a 
better, more educational interpretation of the site.
    This designation is warranted. Our nation's urban history is 
currently under-represented by the NPS. Not many sites tell the story 
of the growth of our nation and its economy from that of agrarian to 
industrial. Other than Lowell, Massachusetts, a one-time industrial 
powerhouse whose historic district was designated a national park, I am 
not aware of another NPS site which represents our nation's early rich 
urban history.
    Congressman Pascrell's legislation would take the first step toward 
this important designation by directing the NPS to study the 
feasibility of establishing a national park at the Paterson Great Falls 
area. I wholly endorse this initiative, and look forward to the 
consideration of H.R. 146 in the Senate. This legislation is necessary 
so that a critical chapter in the story of our nation may be told to 
future generations.
                                 ______
                                 
    Mr. Hefley. The first panel is made up of The Honorable Rob 
Simmons, Second District of Connecticut, and The Honorable Bill 
Pascrell, Jr., the Eighth District of New Jersey. Have you all 
flipped a coin or decided who would like to go first?
    Mr. Pascrell. I will lead off, Mr. Chairman.
    Mr. Hefley. Bill, you take it from there.

STATEMENT OF THE HONORABLE BILL PASCRELL, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Well, thank you, Mr. Chairman, for allowing 
us the opportunity to testify here today. H.R. 146 calls for a 
study of the Great Falls National Historic District, in my 
district and in my hometown of Paterson, New Jersey, to 
determine the feasibility of adding Paterson, the historic 
district, to the National Park System. There is no dispute that 
the Great Falls Historic District possesses an historic 
significance that makes it an area to be preserved and 
treasured. The history is rich.
    Alexander Hamilton realized the incredible beauty and 
potential of the Great Falls when he founded Paterson in 1792. 
As America's first planned industrial city, it is our duty to 
ensure its preservation for generations to come. As we revisit 
Alexander Hamilton, Mr. Chairman, we see a very different 
Hamilton than we learned perhaps in our schools. The greatness 
of this man is yet not discovered.
    Already tourists pour into this area to see the 77-foot 
Great Falls of the Passaic River and to partake in the 
preserved history; 20,000 yearly visitors have attended the 
Paterson Museum, which is in the district. The falls and the 
surrounding neighborhood really represent the genesis of the 
American economic miracle. Increasing the presence of the 
National Park Service will give the area the attention and 
resources it really deserves.
    As a key to our manufacturing roots, these mills that sit 
today at the Great Falls constructed paper and cotton, and 
manufactured the first revolver at Sam Colt's Works, the first 
locomotives at the Rogers Works, as well as airplane engines 
and, of course, silk. Paterson was the Silk City. Paterson is 
known around the world for being the producer of such silk. 
These buildings represent the various stages of the Industrial 
Revolution. They stand as monuments to progress. They are a 
mirror to hard-working American families.
    As a result of the employment opportunities that abound in 
Paterson because of these mills, Mr. Chairman, the city's 
population grew and diversified rapidly. Between 1850 and the 
turn-of-the-century, Paterson's population increased from 
11,000 to 105,000 people, growing by an average of 50 percent 
per decade. As a result, Paterson is representative of the 
waves of immigration in the United States. The Irish and the 
English immigrants, replaced later by the Italians and 
subsequently Spanish-speaking populations who still reside here 
today, 57 ethnic groups. Chronicling the patterns and cultures 
of the immigrants that came to Paterson from the 18th through 
the 20th centuries would provide us with a microcosm of the 
effect of immigration in shaping this greatest of all lands.
    The historic labor unrest in Paterson focused on anti-child 
labor legislation, safety in the workplace, the minimum wage 
and reasonable working hours. Some of the most important 
figures in early 20th-century labor history were involved in 
the Great Silk Strike of 1913, and while teaching modern-day 
Americans about the history of the industry, the mills at Great 
Falls also set the backdrop for the history of the labor 
movement. Today, they can teach both histories so tightly 
intertwined.
    Not only is the Great Falls Historic District historically 
significant, but the city of Paterson stands ready to work in 
conjunction with the National Park Service to develop its 
potential. I am confident that the city is up to this task. 
This is the first legislative step I have taken on behalf of 
the Great Falls toward joining the National Park Service, but 
it is not the first time I have worked with the city of 
Paterson to enhance and develop this valuable and important 
area.
    I have long thought that the Passaic River and the Great 
Falls are not only a critical part of our past history, they 
are the key to our future, to the city's future, to the 
region's future. We must do all we can in a united fashion to 
protect these most valuable assets. As the Mayor of Paterson, I 
went to Washington in 1993 to testify before the House 
Subcommittee on Parks and Public Lands, to help convince 
Congress that this area was worth protecting. I was proud to 
work with then-United States Senator Frank Lautenberg to secure 
Federal funds to revitalize the Great Falls Historic District.
    Our work paid off, and the following year I stood with the 
Senator on the steps of the Paterson Museum and accepted $4.1 
million in Federal dollars, secured under the Urban History 
Initiative, to restore and rebuild the Stoney Road Bridge over 
the upper raceway, as well as hiking trails. This helps 
strengthen the relationship between the National Park Service 
and the city of Paterson.
    The Great Falls District has been on the National Register 
of Historic Places since 1970, has been a national landmark 
named by President Ford, and I was so proud to be there at the 
time that he named, in 1976, this great, great landmark. He 
defined it. He came to Paterson to do such. In 1988, the 
Interior Department listed the district as a Priority One 
threatened National Historic Landmark. So the Park Service has 
long been aware of our need to protect and save this area. 
Since the beginning of our relationship, the city and the Park 
Service have worked together in a partnership that has helped 
the city begin to develop and revitalize the Great Falls 
Historic District.
    You will hear later on, Mr. Chairman, members of the 
Committee, from Anna-Lisa Dopirak, the director of community 
development for the city of Paterson, who will share with you 
many examples of the strong relationship between the city and 
the National Park Service. In addition to a strong partnership 
with the city, I believe the key to the success of creating a 
viable and healthy historic district is community involvement, 
and that is why we created an Advisory Committee that meets 
regularly with the Park Service to choose the priorities and 
shape the direction the Great Falls Historic District will move 
in. As Mayor, I attended many of those meetings and was 
impressed by the community's interest and support on the issue.
    You will also hear from Pat DiIanni, the president of 
Vision 20/20, a community organization that is providing grass-
roots support for the revitalization of the entire county of 
Passaic, including the Great Falls Historic District. He will 
share with you many examples of how the community has evolved.
    These falls really represent our city, Mr. Chairman, its 
people and its potential. This place can be a real destination, 
help us in creating jobs, grow businesses and bring people back 
from all over. You cannot put a velvet rope around the 
district. We must make it a living, breathing attraction that 
will celebrate our past, present and future.
    In conclusion, I will steal the words of the National Park 
Service in the Design Guidelines they created for the Great 
Falls Historic District in 1999. ``The district bears eloquent 
testimony to astounding feats of engineering and construction, 
to ingenious manufacturers and to the courage, creativity and 
drudgery of untold lives spent within those mills. It is also 
about the human propensity to harness the forces of nature, to 
put water and gravity and stone to work. The district retains 
the sense of having been one large factory, driven by one 
powerful engine, an image completely consistent with Hamilton's 
vision of a centralized national manufactory.''
    Thank you again, Mr. Chairman, and I am honored to appear 
before your Committee.
    [The prepared statement of Mr. Pascrell follows:]

  STATEMENT OF THE HONORABLE BILL PASCRELL, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NEW JERSEY, ON H.R. 146

    Thank you Mr. Chairman and the entire subcommittee for allowing me 
the opportunity to testify here today. My legislation, H.R. 146, calls 
for a study of the Great Falls National Historic District in my 
hometown of Paterson, New Jersey, to determine the feasibility of 
adding it to the National Park System.
    There is no dispute that the Great Falls Historic District 
possesses a historic significance that makes it an area to be preserved 
and treasured. The history here is rich. Alexander Hamilton realized 
the incredible beauty and potential of the Great Falls when he founded 
Paterson in 1792 as America's first planned industrial city and it is 
our duty to ensure its preservation for generations to come.
    Already, tourists are pouring in every year to see the 77-foot 
Great Falls of the Passaic River and to partake in our preserved 
history. For the past 12 years, an average of 20,000 yearly visitors 
have attended the Paterson Museum in the Historic District. And the 
Great Falls Visitors Center reports almost 5,000 visitors to the center 
in the last year.
    The Falls and the surrounding neighborhood really represent the 
genesis of the American economic miracle, and increasing the presence 
of the National Park Service here will give the area the attention and 
resources it rightly deserves.
    As a key to our manufacturing roots, the mills that sit today at 
the Great Falls constructed paper, cotton,. They manufactured the first 
revolver at Samuel Colt's Works, the first locomotives at the Rogers 
Works, as well as airplane engines, and of course silk. Paterson is 
known around the world as the Silk City. These buildings represent the 
various stages of the industrial revolution in the United States. They 
stand as monuments to progress, and could provide living museums for 
present day Americans to learn about this important part of our 
history.
    As a result of the employment opportunities that abounded in 
Paterson because of the mills, the city's population grew and 
diversified rapidly. Between 1850 and the turn of the century, the 
population of Paterson increased from 11,000 to 105,000 growing by an 
average of 50 percent per decade.
    As a result, Paterson is representative of the waves of immigration 
in the United States, as Irish and English immigrants were replaced 
later by Italians, and then subsequently Spanish-speaking populations 
who still reside there today.
    Chronicling the patterns and cultures of the immigrants that came 
to Paterson from the 18th through the 20th centuries would provide us 
with a microcosm of the effect of immigrants in the shaping of the 
United States.
    This convergence between the burgeoning industrial workplace and 
the fledgling immigrant communities resulted in conflicts that led to 
the modern day labor movement.
    The historic labor unrest in Paterson focused on anti-child labor 
legislation, safety in the workplace, minimum wage, and reasonable 
working hours. Some of the most important figures in early 20th Century 
American labor history were involved in the Great Silk Strike of 1913.
    While teaching modern day Americans about the history of industry, 
the mills at Great Falls also set the backdrop for the history of the 
labor movement. Today they can teach both histories--so tightly 
intertwined--together.
    Not only is the Great Falls Historic District historically 
significant, but the city of Paterson stands ready to work in 
conjunction with the National Park Service to develop its potential. My 
goal is to create a synergistic partnership between the city of 
Paterson and the National Park Service. I am confident that Paterson is 
up to the task.
    This bill is the first legislative step I have taken on behalf of 
Great Falls toward joining the National Park Service. But it is not the 
first time I have worked with the city of Paterson to enhance and 
develop this valuable and important area. I have long thought that the 
Passaic River and the Great Falls are not only a critical part of our 
past history. They are the key to our future, and we must do all we can 
in a united fashion to protect these most valuable assets.
    As Mayor of Paterson, I went to Washington in 1993 to testify 
before the House Subcommittee on Parks and Public Lands to help 
convince Congress that this area was worth protecting.
    I was proud to work closely with our former U.S. Senator Frank 
Lautenberg to secure Federal funds to revitalize the Great Falls 
Historic District. Our work paid off and the following year, I stood 
with Senator Lautenberg on the steps of the Paterson Museum and 
accepted $4.1 million in Federal dollars secured under the Urban 
History Initiative to restore and rebuild the Stoney Road Bridge over 
the Upper Raceway as well as hiking trails.
    This helped strengthen a relationship between the National Park 
Service and the city of Paterson that is ongoing today. But the city of 
Paterson has an even longer history of working with the Federal 
Government to preserve its historic lands.
    The Great Falls district has been on the National Register of 
Historic Places since 1970 and has been a National Historic Landmark 
since 1976. Since 1988, the Interior Department has listed the district 
as a Priority One threatened National Historic Landmark. So the Park 
Service has long been aware of our need to protect and save this area.
    Since the beginning of our relationship, the City and the Park 
Service have worked together in a partnership that has helped the City 
begin to develop and revitalize the Great Falls Historic District.
    You will hear later from Anna-Lisa Dopirak, the Director of 
Community Development for the city of Paterson, who will share with you 
many examples of the strong relationship between the City and the 
National Park Service.
    In addition to a strong partnership with the City, I believe that 
the key to the success of creating a viable and healthy historic 
district is community involvement. That is why we created an Advisory 
Committee that meets regularly with the Park Service to choose the 
priorities and shape the direction the Great Falls Historic District 
will move in.
    As Mayor of Paterson, I attended as many of those meetings as 
possible. I was impressed by the community's interest and support in 
this issue.
    You will hear later from Pat DiIanni, the President of Vision 20/
20, a community organization that is providing grassroots support for 
the revitalization of Passaic County, including the Great Falls 
Historic District. He will share with you other examples of community 
support and efforts to develop and protect the area through community 
involvement.
    These Falls really represent our city, its people and all its 
potential. This place can be a real destination that will create jobs, 
grow businesses and bring people in from all over. We cannot put a 
velvet rope around the district we must make it a living, breathing 
attraction that will celebrate our past, present and future.
    In conclusion, I will steal the words of the National Park Service 
in the Design Guidelines they created for the Great Falls Historic 
District in 1999, ``The district bears eloquent testimony to astounding 
feats of engineering and construction, to ingenious manufacturers, and 
to the courage, creativity, and drudgery of untold lives spent within 
the mills. It is also about the human propensity to harness the forces 
of nature, to put water and gravity and stone to work. The district 
retains the sense of having been one large factory driven by one 
powerful engine, an image completely consistent with Hamilton's vision 
of a centralized national manufactory.''
    Thank you again for this opportunity.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Pascrell.
    Mr. Simmons?

  STATEMENT OF THE HONORABLE ROB SIMMONS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Simmons. Thank you, Mr. Chairman. I am pleased to be 
here this afternoon to testify in support of H.R. 182, which is 
a bill to study the inclusion of Connecticut's Eightmile River 
as part of the National Wild and Scenic Rivers System, and we 
have a map here in the chamber, Mr. Chairman, which we can use 
to illustrate the location of this river. As you probably know, 
Connecticut has a wealth of natural resources, and the 
Eightmile River, which is located in the area to the east of 
the Connecticut River, which bisects the State, is the area 
that we are talking about. It is a watershed from three of our 
towns down into a cove, which then flows into the river and 
then into Long Island Sound.
    This river has been identified as an exemplary source of 
resources. It is free-flowing. It has excellent water quality. 
It has a diversity of aquatic water habitats and fish species, 
including native trout, and it is also a recreational resource 
which figures into the communities which surround it. 
Unfortunately, because of the trends of development in 
Connecticut in recent years, it is not likely to remain in its 
current condition without some community effort and some effort 
on our part to preserve and protect it.
    That is why, on the very first day that I was sworn in as a 
freshman member of this House of Representatives, I introduced 
a bill to study the Eightmile River for wild and scenic status. 
I was pleased to be joined in that effort by all of my House 
colleagues on both sides of the aisle, from Connecticut, and as 
well, I received commitments from Senators Dodd and Lieberman 
on the Senate side to introduce companion bills in that body. 
For more than 30 years, the National Wild and Scenic Rivers Act 
has protected some of our nation's most precious rivers, and 
they are not all out west or in some of the vast reaches of our 
country. In fact, in northwestern Connecticut, the Farmington 
River has achieved that status through legislation introduced 
by Congresswoman Nancy Johnson. Connecticut can have a wild and 
scenic river. It is possible.
    This Act makes sure that certain select rivers of the 
Nation that have these outstanding assets will be preserved and 
protected, and that they will be available to future 
generations. I think that the Eightmile River possesses all of 
these qualities. I believe that the dollars we are requesting 
for a study will demonstrate that beyond a reasonable doubt, 
and this is the process we follow in these cases. I am proud to 
submit this legislation on behalf of my constituents in those 
three towns, and I would like to request if we could, Mr. 
Chairman, that some correspondence between individuals and 
organizations be introduced into the record. This is an 
initiative that has broad-based support in the community, and 
these letters demonstrate that commitment.
    I am also excited that one of our three first selectmen 
from this area is here with us today. That is Sue Merrow of 
East Haddam. She has some testimony she would like to submit, 
and also Nathan Frohling of The Connecticut Nature Conservancy 
is here to testify on behalf of this bill. I thank you, Mr. 
Chairman, for your attention. I am happy to answer any 
questions that you have, and I look forward to working with you 
and your Committee on this legislation as we move forward.
    [The prepared statement of Mr. Simmons follows:]


 STATEMENT BY THE HONORABLE ROB SIMMONS, A REPRESENTATIVE IN CONGRESS 
               FROM THE STATE OF CONNECTICUT, ON H.R. 182

    Mr. Chairman and members of the Committee, I am pleased to be here 
this afternoon to testify in support of H.R. 182, a bill to study the 
inclusion of Connecticut's Eightmile River as part of the National Wild 
and Scenic Rivers System.
    Eastern Connecticut is fortunate to have a wealth of natural 
beauty, such as the Eightmile River. The river, and the watershed it 
supports, is an outstanding ecological system. It has been identified 
as an exemplary occurrence of one of Connecticut's most imperiled 
natural communities. Its streams are free flowing, contain excellent 
water quality and a diversity of aquatic habitats and fish species, 
including native and stocked trout. The Eightmile River is also an 
important recreational resource and figures prominently in the 
character of the communities in which it flows.
    Unfortunately, the Eightmile River is not likely to remain in this 
outstanding condition without a concerted community effort to protect 
it.
    That's why on my very first day in Congress, I introduced H.R. 182, 
a bill authorizing the National Park Service to study and determine 
whether the Eightmile River is eligible for designation as a National 
Wild and Scenic River. I was pleased to be joined in this effort by 
every member of Connecticut's congressional delegation.
    For more than 30 years, the National Wild and Scenic Rivers Act has 
safeguarded some of the nation's most precious rivers. The Act intends 
that certain select rivers of the Nation that possess outstandingly 
remarkable scenic, recreational, geologic, fish and wildlife, historic, 
cultural or other similar values, shall be preserved in free-flowing 
condition, and that they shall be protected for the benefit and 
enjoyment of present and future generations. Designated rivers receive 
protection to preserve their-free-flowing condition, to protect the 
water quality and to fulfill other vital national conservation 
purposes. I believe Connecticut's Eightmile River possesses all of 
these qualities, deserves all of these protections and should be looked 
at by the National Park Service as an important addition to the 
National Wild and Scenic River System.
    I am very proud to submit this legislation at the request of my 
constituents in East Haddam, Salem and Lyme. I am excited that the 
First Selectman of East Haddam, Sue Merrow and Nathan Frohling of the 
Connecticut Nature Conservancy are here in Washington to testify on 
behalf of this bill. Thank you.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.050
                                 
    Mr. Hefley. Thank you very much, both of you, for your 
testimony. Let me ask you, Mr. Simmons, is there general--I 
take it from what you said, you feel there is general local 
support for this?
    Mr. Simmons. Absolutely, and that is a critical point. We 
have in these letters, they will demonstrate, I think, beyond a 
reasonable doubt that each of the three municipalities, and 
many of the entities of those municipalities, official entities 
of those municipalities, and citizens and citizens groups 
support this initiative. In a sense, I inherited the issue 
because, shortly after the election, I went down into this area 
and was briefed on the project, and I would say two years at 
work, at least, had gone into preparing materials in 
anticipation of submitting this legislation. So, when I was 
briefed, I got a very comprehensive briefing, and I got a very 
clear sense from public officials, private individuals and non-
profit organizations, that they are all in support of this 
initiative.
    Mr. Hefley. Well, that is good, because we would not want, 
you would not us to force this on the people of Connecticut if 
they do not want it personally.
    Mr. Simmons. That is a critical comment and that is why I 
have asked, as two additional witnesses; one, that we have a 
representative from the Nature Conservancy to talk about the 
environmental aspects of the river, but secondly, we have a 
local elected official, a First Selectman, which is essentially 
a Mayor of one of the three towns, testify. If, in fact, we 
were allowed to have more mayors testify, we would have them 
here, but we were asked only to bring one.
    Mr. Hefley. Thank you. Mr. Pascrell, what is there, there 
in Paterson for people to see? Are the mills still in 
existence, and that is part of what you are wanting to save?
    Mr. Pascrell. Mr. Chairman, many of those mills are still 
in existence. They have been converted, some of them, to 
schools, to a museum, to other manufacturing activities. Most 
of them are still there, most of them have been preserved, Mr. 
Chairman, and this is really something to see in its present 
form. We just imagine what it would look like and what would be 
and what it would produce if we are able to really have this 
partnership I have been talking to you about.
    This is a nonpartisan project, Mr. Chairman. The Governor 
of the State, Donald DiFrancesco just became the Governor, has 
written, you have it in the record, his endorsement of this 
project. The two Senators from New Jersey are with us one 
hundred percent, as are the New Jersey members of this 
Committee, in support of this project.
    Mr. Hefley. Okay. Thank you. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman. I will enter my 
statement for the record if that is okay with you.
    Mr. Hefley. Without objection.
    [The prepared statement of Mrs. Christensen follows:]

 STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE TO CONGRESS 
                        FROM THE VIRGIN ISLANDS

    Mr. Chairman, today the Subcommittee will receive testimony on 
three unrelated bills.
    Our first bill, H.R. 146, introduced by Rep. Pascrell, would 
authorize a National Park Service study of the suitability and 
feasibility of designating the Great Falls Historic District in 
Paterson, New Jersey, as a unit of the National Park System. I 
understand the area has a rich industrial history and that our 
witnesses will provide us with some details of the resource values 
found there. Our second bill, H.R. 182, by Mr. Simmons, would authorize 
a study to determine whether it would be appropriate to designate the 
Eightmile River as part of the National Wild and Scenic Rivers System. 
The Eightmile River is located in Southern Connecticut and has already 
been identified by the National Park Service as a potential Wild and 
Scenic River based on its outstanding scenic, geologic, and wildlife 
values.
    While there is no controversy regarding the merits of H.R. 182, it 
is our understanding that the Administration will testify in opposition 
to the bill based on its newly proposed moratorium on new additions to 
the National Park System. We look forward to hearing more about this 
new policy.
    Our last bill, H.R. 601, introduced by Rep. Simpson, would provide 
for hunting on the Federal lands that were included within the Craters 
of the Moon National Monument when the monument was enlarged on 
November 9, 2000. The bill also provides for the disposition of grazing 
fees arising from the use of the expansion area. I understand that 
there are some unusual circumstances pertaining to these matters at the 
monument that the Administration witness will be able to elaborate on.
    Mr. Chairman, we appreciate the presence of our witnesses here 
today and look forward to their insights on the legislation that is 
before us.
                                 ______
                                 
    Mrs. Christensen. I have also been asked to enter the 
statement of Congressman Pallone for the record, I ask 
unanimous consent.
    Mr. Hefley. Without objection.
    [The prepared statement of Mr. Pallone follows:]

  STATEMENT OF THE HONORABLE FRANK PALLONE, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NEW JERSEY, ON H.R. 146

    I support H.R. 146, legislation introduced by my colleague 
Representative Pascrell of New Jersey. H.R. 146 calls for a study of 
the Great Falls National Historic District to determine the feasibility 
of adding this location to the National Park System. Representative 
Pascrell has identified a unique place, rich in the history of 
America's development. The Great Falls Historic District deserves great 
attention; it deserves designation as a National Park.
    At the heart of the Great Falls Historic District is the 77-foot 
Great Falls of the Passaic River, the second largest waterfall by 
volume east of the Mississippi River and a key in our nation's 
manufacturing history. In 1791, Alexander Hamilton selected the Great 
Falls for the creation of an industrial site and with Pierre Charles 
L'Enfant designed a waterpower system to increase the Nation's 
manufacturing capabilities. Hamilton believed that America to be free 
from British influence, must be industrially free ; Great Falls is one 
or our founding father's creations.
    The Great Falls Historic District contains examples of 18th, 19th, 
and 20th-century water-powered remnants, including a three-tiered 
raceway and an abundance of mills. This District is the historical home 
to the first Colt revolver at Samuel Colt's Works, the first 
locomotives and airplane engines at Rogers Works, and is also known 
around the world as "Silk City". Great Falls Historic District includes 
examples of almost every type of manufacturing facility built during 
America's industrial revolution.
    Additionally, Paterson, New Jersey is rich with the history of 
America's immigrant workers. Migration patterns of workers in Paterson 
provide a sketch of America's immigrant population and the role of 
immigrants in America's factories. Further, labor issues in this 
industrial workplace led to the need for labor laws that formed the 
foundation of today's labor movement.
    I support my colleague's approach to review the potential of the 
Great Falls Historic District as a National Park. The Great Falls 
Historic District is an example of New Jersey's development, New 
Jersey's brilliant ingenuity and New Jersey's insight that should be 
preserved to serve as a history lesson to Americans for years to come.
                                 ______
                                 
    Mrs. Christensen. I want to welcome my colleagues, my 
classmate, Congressman Pascrell, who has introduced the bill to 
authorize the National Park Service study. I am well aware of 
your efforts on all fronts to improve the economic conditions 
of Paterson and the surrounding area, and I see this as one 
other way of doing this. I did not know that we shared 
Alexander Hamilton, who grew up in my district in the Virgin 
Islands, which makes me even more interested in your bill.
    Mr. Simmons, when I said I would see you soon, I did not 
expect to see you this soon at our Committee. Welcome. I am 
very interested in your bill. I have always been a supporter of 
the Scenic River Program, however, at this point, it is my 
understanding that the Administration has imposed a moratorium. 
I will be looking forward to hearing from the Administration on 
more about the policy and why it is in place. But, just 
welcome, and thank you for being here.
    Mr. Simmons. Thank you.
    Mr. Hefley. Thank you. Mr. Simpson, did you have some 
testimony you wanted to share?
    Mr. Simpson. No.
    Mr. Hefley. Mr. Gilchrest?
    Mr. Gilchrest. Just a quick question, Mr. Chairman. Mr. 
Pascrell, how many acres does this cover in Paterson?
    Mr. Pascrell. About 112 acres, sir.
    Mr. Gilchrest. Who owns it now?
    Mr. Pascrell. Well, various people. God owns the falls, 
which is in the river and the river runs right through the 
district. There are private ownerships. In fact, most of the 
ownership in the district is privately owned--I would say most 
of the commercial properties, there are also residents. It is a 
mixed zone where the Great Falls Historic District is. As I 
pointed out before, President Ford named this landmark back in 
1976. We need the help of the Park Service, in a synergistic 
partnership, to develop this so that it is really not only a 
destination for tourists, but that the area itself is alive and 
continues to grow.
    Mr. Gilchrest. I am not familiar with the bill. Is it your 
intention to have this owned and then run by the National Park 
Service?
    Mr. Pascrell. Part of the district, as I said, is the falls 
itself. There are parks on both sides of the falls, and that is 
something, since I am not officially part of the government of 
Paterson, I would recommend that there be some kind of 
relationship, some kind of partnership in overseeing that 
particular parkland. It was never my intention that the Park 
Service or the Federal Government own the entire district, sir.
    Mr. Gilchrest. The entire district is a little over 100 
acres?
    MR. Pascrell. That is correct, sir.
    Mr. Gilchrest. Has the State wanted to make it a State Park 
or work with the county to make it a county-state partnership? 
Do you need the money from the Federal Government to get some 
infusion of cash to make all this happen?
    Mr. Pascrell. We have had some infusion of Federal dollars, 
as I pointed out, back in 1995 to begin the process. This is 
our first real attempt to get the Park Service officially to be 
involved, physically, to be involved there in this partnership 
I have talked to you about. The county has endorsed this. The 
State of New Jersey, as I have just said to you, the Governor 
wrote a letter endorsing this particular project. We have 
worked this on many different levels, but we do need the Park 
Service there. I know many times we are reluctant to talk about 
the Park Service in urban areas. We tend to think of them more 
on a grandiose. This is a very different Committee, though. In 
the last two sessions we have gone beyond those old 
parochialisms and commend this Committee, and that is why I am 
very optimistic when I appear before you.
    Mr. Gilchrest. I wish you well. I wish you good luck. I 
also wish Mr. Simmons luck on the eight miles of wild and 
scenic. You don't often think of Connecticut as wild and 
scenic, but if you can save a little wild and scenic in 
Connecticut, we are for it.
    Mr. Simmons. I appreciate those remarks, sir. As I 
indicated, we actually have the Farmington River in the 
northwestern part of the State, which flows into the 
Connecticut River, and it currently has wild and scenic status 
due to the efforts of my colleague, Congresswoman Nancy 
Johnson, some years ago. We do have some unique and special 
spots buried away in our tiny little State.
    Mr. Gilchrest. Maybe you can have a sister River in Idaho 
called Moose Creek. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Simpson?

   STATEMENT OF HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Mr. Chairman. I can tell you that I 
have been to Connecticut and there are places that are both 
wild and scenic. I apologize for being late and I did have an 
opening statement on House Bill 601 that is on the schedule 
today. I want to thank you for scheduling this hearing on H.R. 
601. I would like to thank Don Clower of the Idaho Fish and 
Game Commission and Jack Fisher of the Idaho Wildlife 
Federation for traveling all the way to Washington, D.C. to 
testify on behalf of this legislation. I understand they are on 
panel number two.
    On November 9, 2000, President Bill Clinton issued 
Presidential Proclamation 7373 to expand the boundaries of 
Craters of the Moon National Monument. Prior to Clinton's 
proclamation, the monument was comprised of 52,440 acres. 
President Coolidge established the monument in 1924. Former 
President Clinton's approximation expanded the boundaries to 
include, approximately, 661,287 acres of additional Federal 
land. The area is managed by the Secretary of Interior through 
the National Park Service and by the Bureau of Land Management. 
The National Park Service manages approximately 410,000 acres 
of the expansion, while the Bureau of Land Management manages 
the remaining 251,000 acres.
    When the monument was expanded, it was understood that 
continued access to hunting would be maintained. However, when 
the proclamation was issued, hunting was restricted in the area 
of the expansion managed by the National Park Service. Under 
this legislation, areas that were open to hunting before the 
expansion will remain open to hunting under the jurisdiction 
and laws of the State of Idaho. The legislation also ensures 
the grazing fees collected in the national monument are 
disposed according to the Taylor Grazing Act.
    Unfortunately, due to the outmoded and antiquated national 
monument process, there was not a formal means by which the 
State of Idaho, the congressional delegation or the general 
public could comment on the proposed monument expansion. While 
the Idaho Fish and Game Commission expressed their interest in 
working with the Secretary of Interior to allow for appropriate 
wildlife management in the expanded area, their concerns were 
largely ignored. When the Idaho congressional delegation and 
governor spoke with the Secretary of the Interior about the 
Craters of the Moon expansion, we were led to believe that 
hunting would not be affected. In fact, the relevant language 
of the proclamation says nothing in this proclamation shall be 
deemed to enlarge or diminish the jurisdiction of the State of 
Idaho with respect to fish and wildlife management.
    However, when the proclamation was issued, it was realized 
that current National Park Service regulations preclude hunting 
in the area of the expansion managed by the National Park 
Service; therefore, denying access to traditional hunting 
grounds. H.R. 601 is about fairness and ensuring that Idahoans 
are not locked out of traditional hunting areas. H.R. 601 has 
the support of the Idaho Fish and Game Commission, the Idaho 
Fish and Game Advisory Committee, the Idaho Wildlife Council, 
Idaho Wildlife Federation and local county commissioners.
    Once again, Mr. Chairman, I want to thank you for taking 
the opportunity to hold a hearing on this piece of legislation 
that is important to the State of Idaho. When you look at the 
expansion of the Craters of the Moon into what is called the 
Great Rift, this 661,000 additional acres, it is largely lava 
rock and sagebrush, and people ask if there are really any deer 
out there. I can tell you I have never gotten one with a 30-06, 
but I have gotten one with a Corvette and a Jeep, so there are 
plenty of deer out there. So thank you, Mr. Chairman.
    [The prepared statement of Mr. Simpson follows:]

 STATEMENT OF THE HONORABLE MIKE SIMPSON, A REPRESENTATIVE IN CONGRESS 
                        FROM THE STATE OF IDAHO

    Mr. Chairman, thank you for scheduling this hearing on H.R. 601. I 
would also like to thank Don Clower, Idaho Fish and Game Commission; 
and Jack Fisher, Idaho Wildlife Federation, for traveling all the way 
to Washington, DC to testify on behalf of this legislation.
    On November 9, 2000, former President Bill Clinton issued 
Presidential Proclamation 7373 to expand the boundaries of the Craters 
of the Moon National Monument. Prior to Clinton's proclamation, the 
monument was comprised of 54,440 acres. President Coolidge established 
the monument in 1924.
    Former President Clinton's proclamation expanded the boundaries to 
include approximately 661,287 acres of additional federal land. The 
area is managed by the Secretary of Interior through the National Park 
Service and the Bureau of Land Management. The National Park Service 
manages approximately 410,000 acres of the expansion, while the Bureau 
of Land Management manages the remaining 251,000 acres. When the 
monument was expanded it was understood that continued access to 
hunting would be maintained. However, when the proclamation was issued, 
hunting was restricted in the area of the expansion managed by the 
National Park Service. Under my legislation, areas that were open to 
hunting before the expansion will remain open to hunting under the 
jurisdiction and laws of the State of Idaho. The legislation also 
ensures that grazing fees collected in the national monument are 
dispersed according to the Taylor Grazing Act.
    Unfortunately, due to the outmoded and antiquated national monument 
process there was not a formal means by which the State of Idaho, the 
congressional delegation, and the general public could comment on the 
proposed monument expansion. While the Idaho Fish and Game expressed 
their interest in working with the Secretary of Interior to allow for 
appropriate wildlife management in the expanded area, their concerns 
were ignored by an administration that cared little for public input in 
land management decisions.
    When the Idaho congressional delegation and Governor spoke with the 
Secretary of Interior about the Craters of the Moon expansion we were 
led to believe that hunting would not be affected. However, when the 
proclamation was issued it was realized that current National Park 
Service regulations preclude hunting in the area of the expansion 
managed by the National Park Service. Therefore, denying access to 
traditional hunting grounds.
    H.R. 601 is about fairness and ensuring that Idahoans are not 
locked out of traditional hunting areas. H.R. 601 has the support of 
the Idaho Fish and Game Commission, Idaho Fish and Game Advisory 
Committee, Idaho Wildlife Council, Idaho Wildlife Federation, and local 
county commissioners.
    Once again, I want to take this opportunity to thank you for 
holding this hearing. I am hopeful that the information presented here 
will allow us to move forward with this common sense legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Hefley. My chief ability to harvest deer in Colorado 
has been with my car, too, so I understand what you mean. 
Gentlemen, if you would like to join us up here for the 
remaining part of the hearing, or as much as you can stay, or 
if you would like to participate with us in the hearing, we 
would love to have you do it.
    Let us go to a second panel. Mr. Joseph Doddridge, Acting 
Assistant Secretary for Fish and Wildlife and Parks, Department 
of the Interior; Mr. Don Clower, Idaho Fish and Game 
Commission; and Mr. Jack Fisher, Idaho Wildlife Federation. I 
want to take the two Gentlemen from Idaho first, because you 
have come a long way and I understand you have an airplane to 
catch later this afternoon. You can choose whichever one of you 
would like to speak first and we will go from there.
    Mr. Fisher, you drew the short straw?
    Mr. Fisher. Yes, Mr. Chairman, I believe that I won the 
toss in this case.
    Mr. Hefley. Which goal do you choose to defend?

  STATEMENT OF JACK FISHER, IDAHO WILDLIFE FEDERATION, NAMPA, 
                             IDAHO

    Mr. Fisher. We will find that out here real soon. Mr. 
Chairman and members of the Subcommittee, I want to say my name 
is Jack Fisher and I'm the President of the Idaho Wildlife 
Federation. I'm also a member of the Idaho Fish and Game 
Advisory Committee. I want to thank you for allowing us to 
participate in today's hearing on H.R. 601. My testimony will 
focus primarily on the hunting aspect of this resolution, and 
will be on behalf of the Idaho Wildlife Federation and the 
Idaho Fish and Game Advisory Committee. The Idaho Wildlife 
Federation is Idaho's oldest conservation organization. The 
Federation's primary mission is to promote citizen support for 
the conservation of Idaho's wildlife and natural resources, for 
fishing, hunting and outdoor recreation benefiting all future 
generations.
    Our current membership totals nearly 6,000 Idaho citizens. 
The Idaho Wildlife Federation was founded in 1936 and, in fact, 
this Friday we will be celebrating our 65th anniversary at our 
annual meeting. I would also like to mention that the Idaho 
Wildlife Federation is an affiliate of the National Wildlife 
Federation.
    Mr. Chairman, the sportsmen and women of Idaho are 
extremely concerned over the loss of the hunting opportunity 
due to assignment of management responsibility for the expanded 
acres of the Craters of the Moon National Monument to the 
National Park Service. In our opinion, H.R. 601 has more to do 
with instilling a sense of faith in the integrity of our 
government. When the Craters of the Moon National Monument was 
being discussed in Idaho, the Idaho Wildlife Federation voiced 
concerns that hunting opportunities might be lost, and it seems 
that those concerns have proved to be well founded.
    It is our understanding that assurances were given to 
Idaho's congressional delegation, as well as Idaho's governor, 
that hunting would continue to be allowed if the expansion was 
approved. Some believe that by merely assigning management 
responsibility of the expanded area to the National Park 
Service, it was going to automatically eliminate hunting. That 
is certainly what has happened, and while there are those who 
support such restrictions, the Idaho Wildlife Federation is not 
one of them.
    The very size and remoteness of the area that now comprises 
the Craters of the Moon National Monument makes restrictions 
for hunting needless. I believe it is important to put the size 
of the area we are talking about into perspective. I have 
researched the size of Washington D.C., and found out that it 
encompasses approximately 43,000 acres, or 68.2 square miles. 
By comparison, the expanded portion of the Craters of the Moon 
National Monument encompasses some 661,000 acres, or 948 square 
miles, which is about 14 times the size of Washington, DC.
    As for lost hunting opportunity, in 1999, elk hunters spent 
an estimated 2,158 man days afield, and additionally deer 
hunters spent another 1,238 man days in the area. In addition, 
antelope, sage grouse and doves are hunted in significant 
numbers, which would further add to the utilization in this 
area. The loss of nearly 4,000 man days of hunting opportunity 
will put additional stress on surrounding wildlife management 
areas at a time when hunting pressure is of a growing concern.
    The economic impact for just the deer and elk hunting alone 
equates to about $210,000. Now, that may not seem like much of 
a dollar impact, but in rural Idaho it is definitely very 
significant. I believe that it is important to mention that 
currently the area does not have a wildlife deprivation problem 
that would be involving adjacent private landowners' 
agricultural crops. However, the loss of hunting opportunity 
and the lack of harvest of the surplus deer and elk and 
antelope will most certainly result in future deprivation 
problems.
    Controversy surrounding wildlife deprivation statewide is a 
constant problem and was the primary reason for creating the 
Idaho Fish and Game Advisory Committee initially in 1989. So, 
in closing, Mr. Chairman, I would like to extend my 
appreciation to Representative Mike Simpson for presenting this 
legislation, and I would like to point out that virtually 
nothing has changed except the designation of this land as part 
of the Craters of the Moon National Monument, and the transfer 
of management responsibility from one government agency to 
another, and as such, I urge that you and the members of your 
Committee support H.R. 601.
    As I had mentioned earlier in my testimony, this is really 
an issue about instilling a sense of faith in the integrity of 
our government, by keeping promises and restoring our 
traditional hunting opportunities in this area. That concludes 
my testimony on this, sir.
    [The prepared statement of Mr. Fisher follows:]

STATEMENT BY JACK W. FISHER, PRESIDENT, IDAHO WILDLIFE FEDERATION, AND 
      MEMBER, IDAHO DEPARTMENT OF FISH AND GAME ADVISORY COMMITTEE

    Mr. Chairman and members of the Subcommittee:
    Thank you for inviting us to participate in today's hearing on 
House Resolution 601. My testimony will focus on the hunting aspects of 
the resolution. However, before doing so, I believe it is important to 
provide you with some background information concerning the Idaho 
Wildlife Federation who I have the honor of representing. My testimony 
will also be on behalf of the Idaho Department of Fish and Gem's 
Advisory Committee of which I am a member. The Advisory Committee's 
membership represents both sportsmen and agricultural interests.

                               BACKGROUND

    The Idaho Wildlife Federation is Idaho's oldest conservation 
organization. The Federation's primary mission is to promote citizen 
support for the conservation of the state's wildlife and natural 
resources for fishing, hunting, and outdoor recreation benefiting 
future generations. We currently have several hundred members and 25 
affiliate organizations. Our affiliates represent diverse sportsmen's 
interests from throughout Idaho including archery, fishing, law 
enforcement, hunting dogs, wild turkeys and even a herpetological 
society. Membership to our affiliate groups varies from a relative 
handful to well over a thousand in the case of the Idaho State 
Bowhunters organization.
    The Idaho Wildlife Federation was founded in 1936 as an outgrowth 
of the national Civilian Conservation Corps program due to growing 
citizen concern about conservation and wildlife management. This Friday 
we will be celebrating our 65th anniversary at our annual banquet. I 
would also like to mention that the Idaho Wildlife Federation is an 
affiliate of the National Wildlife Federation although we function 
independently.

 IDAHO WILDLIFE FEDERATION'S AND THE ADVISORY COMMITTEE'S INTEREST IN 
                                H.R. 601

    The sportsmen of Idaho are extremely concerned over the loss of 
hunting opportunities due to assignment of management responsibility 
for expanded acreage of the Craters of the Moon National Monument to 
the National Park Service.
    It is our opinion the resolution has more to do with instilling a 
sense of faith in the integrity of our government. When the expansion 
of Craters of the Moon National Monument was being discussed, the Idaho 
Wildlife Federation was concerned that hunting opportunities might be 
lost. It seems those concerns have proved to be well founded.
    It has been our understanding that assurances were given to Idaho's 
congressional delegation as well as Idaho's Governor that hunting would 
continue to be allowed if the expansion was approved. We are uncertain 
if some of those involved may have known surreptitiously that, by 
assigning management responsibility for a portion of the expanded area 
to the National Park Service, hunting would automatically be 
restricted. However, that is certainly what has happened and while 
there may be those who support such restrictions, our organization is 
not one of them.

            IMPACTS DUE TO THE LOSS OF HUNTING OPPORTUNITIES

    The very size of the area that now comprises the Craters of the 
Moon National Monument makes restrictions on hunting needless. I 
believe it is important to try and put the size of the area we are 
talking about into some sort of perspective. To do so, I researched the 
size of Washington, D.C. and found it encompasses about 43,648 acres or 
68.2 square miles. By comparison, just the expanded area of the Craters 
of the Moon National Monument encompasses 607,000 acres or about 948 
square miles, roughly 14 times the size of Washington, D.C. Thus, with 
the mere stroke of a pen, such a vast remote area was placed off limits 
to those who have traditionally hunted in the area.
    I would like to point out that I am not aware of any hunting-
related mishaps in the area in question so safety is really not an 
issue. As for lost hunting opportunities, in 1999 elk hunters spent an 
estimated 2,158 days in the field and deer hunters another 1,238 days 
in this area. I was unable to obtain similar estimates for other 
species such as antelope and sage grouse which would add to the hunter 
utilization information. From an economic impact standpoint for just 
elk and deer hunting in the management area involved, the numbers 
equate to about $210,795. That may not seem like much of a dollar 
impact to some of you, but in rural Idaho it's significant.
    Additionally, I believe it is important to mention that currently 
the area does not have a wildlife depredation problem involving 
adjacent private landowners' agricultural crops. However, the loss of 
hunting opportunities and harvest of elk and deer will most likely 
result in a depredation problem due to the inability to keep wildlife 
populations in check by hunter harvest. Controversies surrounding 
wildlife depredation in general is a constant problem and was the 
primary reason for creating the Fish and Game Advisory Committee.
                               conclusion
    Mr. Chairman, in closing I would like to extend appreciation to 
Representative Mike Simpson for sponsoring the resolution. I would also 
like to point out that virtually nothing has changed except for the 
designation of the bud as part of the Craters of the Moon National 
Monument and the transfer of management responsibility from one 
government agency to another. As such, I urge you and members of your 
Subcommittee to support House Resolution 601.
    As I mentioned earlier in my testimony, this is really an issue 
about instilling faith and integrity in our government by keeping 
promises and retaining traditional hunting opportunities. I would be 
pleased to respond to any questions that you or other members of your 
Subcommittee may have at this time.
                                 ______
                                 
    Mr. Hefley. Thank you very much, Mr. Fisher.
    Mr. Clower?

   STATEMENT OF DON CLOWER, IDAHO FISH AND GAME COMMISSION, 
                        MERIDIAN, IDAHO

    Mr. Clower. Mr. Chairman, members of the Committee, I would 
like to take just a moment to thank you for the opportunity to 
testify in front of the Subcommittee. My name is Don Clower. I 
am a member of the Idaho Fish and Game Commission. A brief 
history of the Idaho Fish and Game Commission; there are seven 
commissioners who are appointed by the Governor of Idaho to 
manage the affairs of the Idaho Fish and Game department and 
manage the wildlife in the State of Idaho. I was appointed to 
this commission in 1999 by Governor Dirk Kempthorne. The 
Craters of the Moon National Monument was expanded to 661,000 
acres. Hunting has been a traditional part of this expansion 
long before white men ever came to the State of Idaho.
    I would like to point out one part of the proclamation that 
has been brought up a couple of times before, but I believe has 
a great amount of importance on this issue. The proclamation 
states that nothing in this proclamation shall be deemed to 
enlarge or diminish the jurisdiction of the State of Idaho with 
respect to fish and wildlife management. We were led to 
believe, when this monument proclamation was under discussion, 
that traditional hunting and other uses of this area would be 
guaranteed.
    Immediately upon the Park Service taking over the 
management of this land, we lost that ability to manage the 
wildlife and exercise the rights of the State of Idaho to 
manage our wildlife. Hunting and trapping will not harm the 
resources the monument was established to protect. The monument 
was originally established and recently expanded to protect 
geological formations. This is a very isolated area in the 
central part of the State of Idaho, very inaccessible. There is 
really only one road that passes through Craters of the Moon. 
The other roads are two tracks, very unimproved roads that lead 
out into different sections of the lava flow that are available 
for hunting and trapping. Last year, Jack gave you the number 
of man hours that were utilized in the Craters of the Moon for 
hunting.
    We have a really good elk herd out there that produces 
outstanding opportunities to elk hunt. We have a large deer 
herd and we have a large antelope herd, which provide 
opportunity for sportsmen in the State of Idaho to harvest 
during hunting seasons. Our hunting seasons are very short. 
They run for a couple of months in the late fall and they do 
not interfere and never have interfered with the management of 
this particular area. Again, you will have to understand, this 
is a very, very remote part of Idaho and fairly inaccessible.
    Prohibiting hunting will result in a loss of unique and 
highly valued recreational opportunities. There is a common 
misconception that no hunting takes place in the lava flows, 
but there is a considerable amount of use of this particular 
area. Prohibiting hunting and trapping on the expansion is also 
administratively impractical, if not impossible, because of 
having to try to sign the different areas in the lava flow, 
because if you have ever been out to the Craters of the Moon, 
the lava flow comes and goes in a very, very large area. I am 
not too sure exactly how you would sign all this area to 
prohibit hunting in one portion and the other portion managed 
by the BLM would continue to allow hunting. So it would be a 
very difficult area, in our opinion, to try to manage.
    In closing, Mr. Chairman, the Idaho Fish and Game 
Commission requests passage of H.R. 601 because it makes sense. 
The rules regarding the use of the national monument should be 
tailored to the resource or the designation it was designed to 
protect. Uses that do not conflict with the purpose of the 
designation should not only be allowed, they should be 
encouraged. Hunting and trapping are compatible with the 
expanded area of the Craters of the Moon National Monument. 
These activities have been going on there for years without 
harming the scenic beauty of this unearthly landscape. Let's 
keep it that way. I would like to thank the Committee and 
Congressman Simpson for allowing us the opportunity to come 
here today and speak in support of this legislation.
    Thank you.
    [The prepared statement of Mr. Clower follows:

        STATEMENT OF DON CLOWER, IDAHO FISH AND GAME COMMISSION

    My name is Don Clower. I am a member of and am testifying on behalf 
of the Idaho Fish and Game Commission. I appreciate the opportunity to 
address this Subcommittee in support of Congressman Simpson's bill 
regarding hunting on the recent expansion of the Craters of the Moon 
National Monument in Idaho.
    The expansion of the Craters of the Moon National Monument was 
imposed by Presidential Proclamation on November 9, 2000. This 
expansion was significant, increasing the size of the monument nearly 
tenfold to 661,000 acres with 410,000 acres to be managed by the 
National Park Service (NPS). The remaining 250,000 acres will be 
managed by the BLM.
    The NPS-administered portion of the expansion will be closed to 
hunting and trapping, in spite of language in the President's 
proclamation that states: ``Nothing in this proclamation shall be 
deemed to enlarge or diminish the jurisdiction of the State of Idaho 
with respect to fish and wildlife management.'' The rationale behind 
this decision to exclude hunting and trapping seems to be based on the 
practice that the NPS does not normally allow these activities on lands 
it administers unless there is legislation specifically allowing 
hunting and trapping. Hence the apparent need for Congressman Simpson's 
legislation. We urge you to support this legislation for the following 
reasons:
    Hunting and trapping will not harm the resources the monument was 
established to protect. The monument was originally established and 
recently expanded to protect geologic formations. These activities will 
not have any impact on the lava flows or other geologic features of the 
monument that are any different than other uses of the monument like 
hiking, photography or sightseeing. Vehicles are restricted to existing 
roads and trails and apply to all users.
    Hunting and trapping will not interfere with other uses of the 
monument. Seasons for both activities are relatively short and have 
limited participation. Hunting is confined to the months of September 
through November, which are outside the high visitation months of June, 
July and August while trapping is conducted from December through 
February. Under Congressman Simpson's proposed legislation, these 
traditional activities would only be allowed on the expansion, the 
original monument with its parking areas and visitor center would 
remain closed to hunting.
    Prohibiting hunting and trapping on the expansion is 
administratively impractical if not impossible. The expanded monument 
contains land managed by the NPS and the Bureau of Land Management 
(BLM). The NPS land includes the lava flows and the BLM land includes 
the sagebrush and grassland habitats surrounding the flows. The 
boundary between the land managed by the BLM, where hunting will 
continue to be allowed, and the NPS where hunting is prohibited is 
indistinct and is not readily discernible by the public. In order to 
post signs on the boundary, it would have to be surveyed, at 
considerable expense. The resultant signing would be unsightly and 
defeat the purpose of protecting the scenic beauty of the area. Until 
signing is completed, the public will not be able to tell if they are 
in the area open to hunting and trapping.
    Prohibiting hunting on the expansion will have negative impacts to 
nearby farmland. The loss of hunting and expanded refuge created by the 
monument is likely to result in increases in elk numbers. In the last 
twenty years, `elk populations have increased dramatically on the 
sagebrush steppe lands surrounding the Monument and the Idaho National 
Engineering and Environmental Laboratory (INEEL). These animals spend 
the daylight hours where hunting is prohibited and depredate adjacent 
agricultural lands at night. Large refuges like the INEEL and the 
expanded Craters Monument make it very difficult to control the size of 
these elk herds. In addition, higher elk populations could alter the 
unique native plant communities found in the lava flows and smaller 
kipukas that the monument desires to protect. Prohibiting hunting and 
other wildlife management practices will inhibit our ability to manage 
big game populations at a level that is compatible with other resource 
uses and values. We suggest that the proposed legislation allow other 
wildlife management practices on the expansion, like trapping and 
aerial survey.
    Prohibiting hunting will result in the loss of a unique and highly 
valued recreational opportunity. There is a common misconception that 
no hunting takes place on the lava flows. Hunters and trappers do use 
this area. Those willing to brave the remote and hostile terrain are 
rewarded with a truly unique recreational experience. Trapping should 
also be authorized in the legislation.
    Allowing hunting on lands managed by the National Park Service will 
not set a precedent. In the past the IDFG has successfully advocated 
maintaining hunting opportunity in the designation of National 
Monuments in Idaho. When the Hagerman Fossil Beds National Monument and 
the City of the Rocks National Reserve were designated, both remained 
open to hunting. The IDFG has worked closely with the NPS and the Idaho 
Department of Parks and Recreation to ensure hunting does not conflict 
with other uses of these lands. The Department is committed to 
continuing this relationship on the expanded Craters of the Moon 
National Monument.
    The concerns I have outlined here today will come as no surprise to 
the NPS, the BLM and other Department of Interior (DOI) officials 
familiar with the proposal to expand the Craters of the Moon. We were 
disappointed in the lack of coordination by the DOI in the early phases 
of this proposal. We were not notified of or invited to participate in 
public meetings or interagency discussions on expansion of the Craters. 
In spite of this, the Commission made their concerns known in writing 
and in testimony prior to the President's proclamation, all to no 
avail. Our Governor, Dirk Kempthome, has written Secretary Gale Norton 
on this issue and our legislature has passed a memorial regarding 
hunting in the Craters expansion area.
    In closing, Mr. Chairman, the Idaho Fish and Game Commission 
requests passage of this legislation because it makes sense. The rules 
regarding uses of National Monuments should be tailored to the 
resources the designation was designed to protect. Uses that do not 
conflict with the purpose of the designation should not only be 
allowed, they should be encouraged. Hunting and trapping are compatible 
with the expanded area of the Craters of the Moon National Monument. 
These activities have been going on there for years without harming the 
scenic beauty of this unearthly landscape. Let's keep it that way. I 
thank you for this opportunity to testify and for your favorable 
consideration of this request.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Mr. Doddridge?

 STATEMENT OF JOSEPH E. DODDRIDGE, ACTING ASSISTANT SECRETARY 
 FOR FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Doddridge. Mr. Chairman, thank you for the opportunity 
to appear before your Committee today. I have three different 
bills to testify on, and I would like to present them, with 
your concurrence or approval, in the order that they were 
presented to you. The first would be H.R. 146, a bill to 
authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the Great Falls 
Historic District in Paterson, New Jersey as a unit of the Park 
System. The Department of the Interior recommends that the 
Committee defer action on H.R. 146 until the Park Service is 
able to make further progress on the President's initiative to 
eliminate the deferred maintenance backlog within the next five 
years. We are seeking a temporary moratorium on new park unit 
designations or authorized new studies so that we can focus our 
existing staff and resources on taking care of what we now own. 
We also want to use our available planning funds to complete 
previously authorized studies in establishing new park units or 
expanding units.
    I should say that, in addition, we are concerned that such 
a study could serve to divert the city of Paterson and the 
National Park Service from the very real opportunities 
authorized by Congress in 1992 and 1996, and opportunities that 
have yet to be fully realized. As Congressman Pascrell stated, 
the 1996 legislation provides Paterson with the opportunity 
both to demonstrate its capacity for leadership and 
partnership, and to develop and implement a preservation 
program as indicators of its commitment and capacity. 
Successful completion of that program could lead to a future 
congressional designation or a reauthorized partnership 
funding, as appropriate. Our concern is, given the limited 
resources we have for special resources study, that this could 
divert attention from existing opportunity authorized in the 
1996 Act.
    This could take a few years to complete, especially when 
considering other congressionally authorized studies that are 
competing for limited resources available to the program. If 
the recommendations of the study were negative and the 
congressional action forthcoming, there would be no 
preservation or development action available to us. Mr. 
Chairman, that concludes my testimony.
    The next bill, which is H.R. 182, would amend the Wild and 
Scenic Rivers Act by designating segments of the Eightmile 
River for study and potential addition to the Wild and Scenic 
River System. As in the previous bill, Mr. Chairman, we 
recommend that the Committee defer action on this until we can 
make further progress on our initiative to eliminate the 
backlog within the next five years.
    We are seeking this temporary moratorium until we can sort 
this out and make some progress in this area. I should point 
out, as Congressman Simmons indicates, that over the past 
couple of years, the Park Service has responded to interest and 
inquiries from local advocates and town officials regarding a 
potential Wild and Scenic River study for the Eightmile River. 
There appears to be strong local commitment and interest and 
support for protecting the river system, as evidenced by the 
Committee's formation of an intermunicipal watershed committee 
and the signing of an innovative Eightmile River watershed 
conservation concept. The concept, signed by the communities of 
East Haddam, Lyme and Salem acknowledge their commitment to 
protect and enhance water resources, wildlife habitats and 
rural landscapes in the watershed.
    I should also point out that, in going through the material 
before this hearing, the Fish and Wildlife Service has also 
worked closely with the local communities as far as possible 
additions to the Conte Refuge. So there is more than one agency 
in the Department of the Interior that is interested in this 
watershed. But notwithstanding the strong support, we again 
recommend that Congress defer action on this until we make 
further progress in eliminating our maintenance backlog. Thank 
you.
    As far as the third bill which I am here to testify on 
today, H.R. 601, a bill to ensure continued access of hunters 
to those Federal lands included within the boundaries of the 
Craters of the Moon National Monument in the State of Idaho, 
pursuant to Presidential Proclamation 7373 on November 9, 2000, 
and to continue the applicability of the Taylor Grazing Act and 
the disposition of grazing fees arising from the use of such 
lands, and for other purposes.
    Mr. Chairman, the Department supports H.R. 601, which would 
preserve hunting on the NPS-managed portion of the monument 
expansion. As Congressman Simpson pointed out, and the 
gentleman from Idaho, prior to the recent proclamation, Craters 
of the Moon National Monument was managed solely by the 
National Park Service. The expansion of the monument, however, 
consists of lands that have been administered by the Bureau of 
Land Management. The proclamation gives both agencies 
responsibilities for administering the monument cooperatively. 
The National Park Service has the primary management 
responsibility for the old monument, plus the approximate 
400,000-acre addition that consists of exposed lava flows. The 
Bureau of Land Management is responsible for administering the 
remainder of the portion.
    The proclamation specified that the NPS portion is to be 
managed under the same laws and regulations that applied to the 
original monument. Since hunting has not been authorized in the 
original Craters of the Moon National Monument, the effect of 
the proclamation was to prohibit hunting in the NPS portion of 
the monument expansion. However, the Department supports a 
clarification of this language to allow continued use of the 
lands in the expanded monument area for hunting. Hunting in a 
portion of the monument administered by the Bureau of Land 
Management is not affected.
    The Department also recognizes that legislation to provide 
the authority for hunting within the NPS management portion of 
the monument expansion would give the superintendent the 
ability to work cooperatively with the State of Idaho on issues 
concerning adjacent landowners. For example, hunting could be 
used as a tool in mitigating agricultural depredation caused by 
elk grazing on alfalfa crops on privately owned lands outside 
the monument. While the Department supports legislation to 
continue hunting in the NPS portion of the monument, this does 
not include support for opening to hunting the portion of the 
monument that existed prior to the proclamation. That portion 
has always been and should continue to be closed to hunting. In 
addition, I would like to clarify that the Department's 
position on this specific issue does not indicate support for 
opening other areas of the park system to hunting.
    I will be finished shortly, Mr. Chairman. While the 
Department supports the intent of H.R. 601, to open the NPS-
managed portion of the monument expansion, we are concerned 
over the language in Section 1(b) that appears to preclude any 
authority of the Secretary to exercise jurisdiction over the 
activity. Is that an omen, Congressman?
    [Laughter.]
    Mr. Simpson. I would say that was the first negative thing 
you said.
    [Laughter.]
    Mr. Doddridge. We believe that the Secretary has a role to 
play in cooperation with the State to ensure that hunting is 
consistent with public safety, area administration, protection 
of the monument's resources, and public use and enjoyment. We 
have attached proposed language for the Committee's 
consideration that is consistent with similar provisions and 
laws that authorize hunting in other park areas. H.R. 601 also 
requires the Taylor Grazing Act to continue to apply to the 
disposition of grazing fees arising from the use of the 
expansion area.
    It requires a certain percentage of fees to be returned to 
the grazing district in which the use occurs. However, it is my 
understanding that since no grazing occurs in the NPS portion 
of the expansion area and the proclamation does not affect 
grazing on the BLM portion, we feel this provision is 
unnecessary. This concludes my testimony on the three bills, 
Mr. Chairman.
    Thank you.
    [The prepared statements of Mr. Doddridge follow:]


 STATEMENT OF JOSEPH E. DODDRIDGE, ACTING ASSISTANT SECRETARY FOR FISH 
    AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, ON H.R. 146

    Mr. Chairman, thank you for the opportunity to appear before your 
Committee to present the views of the Department of the Interior on 
H.R. 146, a bill to authorize the Secretary of the Interior to study 
the suitability and feasibility of designating the Great Falls Historic 
District in Paterson, New Jersey, as a unit of the National Park 
System.
    The Department of the Interior recommends that the Committee defer 
action on H.R. 146 until the National Park Service (NPS) is able to 
make further progress on the President's Initiative to eliminate the 
deferred maintenance backlog within five years. We are seeking a 
temporary moratorium on new park unit designations or authorizations of 
new studies so that we can focus our existing staff and resources on 
taking care of what we now own. We also want to use our available 
planning funds to complete previously authorized studies with a close 
examination of the life-cycle costs of establishing a new park unit, 
expanding an existing unit, or adding new NPS funding obligations.
    Paterson, New Jersey has a rich history as the Nation's first 
planned industrial city as well as containing some of the country's 
oldest textile mills. In 1792, Alexander Hamilton formed an investment 
group called the Society of Useful Manufactures whose funds would be 
used to develop a planned industrial city in the United States that was 
later to become Paterson. Hamilton believed that the United States 
needed to reduce its dependence on foreign goods and should instead 
develop its own industries. The industries developed in Paterson were 
powered by the 77-foot high Great Falls of the Passaic, and a system of 
water raceways that harnessed the power of the falls. The district 
originally included dozens of mill buildings and other manufacturing 
structures associated with the textile industry and later, the 
firearms, silk, and railroad locomotive manufacturing industries. In 
the latter half of the 1800's, silk production became the dominant 
industry and formed the basis of Paterson's most prosperous period, 
earning it the nickname Silk City. Paterson was also the site of 
historic labor unrest that focused on anti-child labor legislation, 
safety in the workplace, a minimum wage, and reasonable working hours.
    Industrial decline in Paterson followed the general pattern for 
northern textile cities, with a major decrease in business during the 
middle third of the 20th Century. Today, the historic district reflects 
many phases of decline and renewal: some buildings are deteriorated and 
vacant, while others continue in industrial use or have been adaptively 
reused for housing and offices.
    Because of its significant role in the economic and industrial 
development of the United States, the 89-acre Great Falls of the 
Passaic/Society of Useful Manufactures Historic District was listed on 
the National Register of Historic Places in 1970 and designated a 
National Historic Landmark (NHL) in 1976. Since 1988 the District has 
been listed as a Priority One threatened National Historic Landmark in 
the Department of the Interior's annual report to Congress on NHLs. 
This threatened status is primarily based on the condition of the 7-
acre site that formerly housed the Allied Textile Printers. This site, 
immediately below the Great Falls, has been devastated by a dozen fires 
over the last 15 years. The site was acquired by the city of Paterson 
through foreclosure in 1994 and a developer is currently under contract 
to redevelop the site.
    In addition, we are concerned that such a study would serve to 
divert the city of Paterson and the National Park Service from the very 
real opportunities authorized by Congress in 1992 and 1996, 
opportunities that have yet to be fully realized.
    In the Fiscal Year 1992 Appropriations bill for the Department of 
the Interior, Congress appropriated funds for the New Jersey Urban 
History Initiative to provide funding for historic preservation 
projects that encourage economic development. The city of Paterson was 
authorized to receive $4.147 million in Urban History Initiative funds 
to be administered by the NPS under a cooperative agreement with the 
City. Over the years, the NPS has worked closely with the City to use 
the money to protect historic resources while fostering compatible 
economic development. This initiative has shown results such as funding 
projects for research, community grants, and restoration of historic 
resources. For example, Urban History Initiative funds were used for an 
oral history project and ethnographic study conducted by the Library of 
Congress American Folklife Center. Funds were also used for the 
stabilization of the ruins of the Colt Gun Mill as part of a match for 
a New Jersey Historic Trust grant to the city of Paterson.
    The second major congressional initiative to support historic 
preservation opportunities in Paterson is section 510 of the Omnibus 
Parks and Public Lands Management Act of 1996 (Public Law 104-333; 110 
Stat. 4158). The Great Falls Historic District was authorized for $3.3 
million in matching grants and assistance to develop and implement a 
preservation and interpretive plan for the District, and permit the 
development of a market analysis with recommendations of the economic 
development potential of the District. Yet, none of these funds 
authorized in 1996 have been appropriated.
    Although the City has committed to the raising of the matching 
funds required under the authorization, we do not believe that this has 
yet occurred. Such matching funds will be important because recent 
legislation indicates that Congress expects significant non-Federal 
matches for new units of the national park system containing large 
numbers of historic buildings such as the New Bedford National 
Historical Park and Boston Harbor Islands National Recreation Area. 
Without this demonstrated local financial support for the operation and 
protection of new park units, it is probably not feasible to recommend 
their addition to the System.
    The 1996 legislation provides Paterson with the opportunity both to 
demonstrate its capacity for partnership, and to develop and implement 
a preservation program as indicators of its commitment and capacity. 
The successful completion of that program could lead to a future 
congressional designation or reauthorized partnership funding as 
appropriate.
    Our concern is that given limited resources, a special resource 
study (SRS) could divert attention from the existing opportunities 
authorized in the 1996 Act. The SRS could easily take years to 
complete, especially when considering other congressionally authorized 
studies that are competing for limited money available in this program. 
If the recommendations of the study were negative and no congressional 
action forthcoming, years would have passed with no preservation or 
development action.
    The National Park Service believes in the important historic and 
natural resources in the city of Paterson, and we believe in the 
capacity of the City to identify matching funding. There are signs this 
is beginning to happen. The breadth of activities allowed under the 
1996 Act is much greater than those normally authorized for a national 
park unit. It is our sincere wish that the currently authorized 
preservation initiative for Paterson be allowed to proceed rather than 
being delayed by a study.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other Committee members might have.
                                 ______
                                 

 STATEMENT OF JOSEPH E. DODDRIDGE, ACTING ASSISTANT SECRETARY FOR FISH 
    AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, ON H.R. 182

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on H.R. 
182. H.R. 182 would amend the Wild and Scenic Rivers Act by designating 
segments of the Eightmile River for study and potential addition to the 
Wild and Scenic Rivers System.
    The Department of the Interior recommends that the Committee defer 
action on H.R. 182 until the National Park Service (NPS) is able to 
make further progress on the President's Initiative to eliminate the 
deferred maintenance backlog within five years. We are seeking a 
temporary moratorium on new park unit designations or authorizations of 
new studies so that we can focus our existing staff and resources on 
taking care of what we now own. We also want to use our available 
planning funds to complete previously authorized studies with a close 
examination of the life-cycle costs of establishing a new park unit, 
expanding an existing unit, or adding new NPS funding obligations.
    The Eightmile River is located in the lower Connecticut River 
watershed in south central Connecticut. Fifteen miles of the Eightmile 
River and its East Branch through the communities of Lyme, East Haddam, 
and Salem, Connecticut are included on the National Park Service's 
Nationwide Rivers Inventory of potential Wild and Scenic River 
segments. Both segments are included on the Inventory for outstanding 
scenic, geologic, fish and wildlife values. Over eighty percent of the 
Connecticut River watershed is still forested, including large tracts 
of unfragmented hardwood forests that are home to a diverse assemblage 
of plants and animals including bobcats, Great Horned Owls, red foxes, 
and the Cerbulean Warbler.
    Over the course of the past two years, the National Park Service 
has responded to interest and inquiries from local advocates and town 
officials regarding a potential Wild and Scenic River study for the 
Eightmile River. There appears to be strong local support for 
protecting the river system, as evidenced by the communities formation 
of an inter-municipal watershed committee and the signing of an 
innovative Eightmile River Watershed Conservation Compact. This 
compact, signed by the communities of East Haddam, Lyme and Salem, 
acknowledges their commitment to protect and enhance water resources, 
wildlife habitats, and rural landscapes in the watershed.
    Notwithstanding the strong local support, we again recommend that 
the Committee defer action on the bill until the National Park Service 
is able to make further progress to eliminate the deferred maintenance 
backlog.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other Committee members may have 
regarding this bill.
                                 ______
                                 

 STATEMENT OF JOSEPH E. DODDRIDGE, ACTING ASSISTANT SECRETARY FOR FISH 
    AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, ON H.R. 601

    Mr. Chairman, members of the Subcommittee, I appreciate the 
opportunity to appear before you today to present the views of the 
Department of the Interior on H.R. 601, a bill to ensure the continued 
access of hunters to those Federal lands included within the boundaries 
of the Craters of the Moon National Monument in the State of Idaho 
pursuant to Presidential Proclamation 7373 on November 9, 2000, and to 
continue the applicability of the Taylor Grazing Act to the disposition 
of grazing fees arising from the use of such lands, and for other 
purposes.
    The Department supports H.R. 601, which would preserve hunting on 
the NPS-managed portion of the monument expansion.
    Craters of the Moon National Monument was established by 
Proclamation of President Calvin Coolidge in 1924 for the purpose of 
protecting the unusual landscape of the Craters of the Moon lava field. 
This unusual landscape was thought to resemble the surface of the Moon 
and the Proclamation stated that the area ``contains many curious and 
unusual phenomena of great educational value and has a weird and scenic 
landscape peculiar to itself.'' Between 1924 and 1962, the monument was 
expanded and boundary adjustments were made through four Presidential 
proclamations. In 1996, a minor boundary adjustment was made by section 
205 of the Omnibus Parks and Public Lands Management Act of 1996 (110 
Stat. 4093; Public Law 104-333). On November 9, 2000, President 
Clinton's proclamation expanded the 53,440-acre monument by adding 
approximately 661,287 acres of Federal lands.
    The expanded monument includes almost all the features of basaltic 
volcanism, including the craters, cones, lava flows, caves, and 
fissures of the 65-mile long Great Rift, a geological feature that is 
comparable to the great rift zones of Iceland and Hawaii. It comprises 
the most diverse and geologically recent part of the lava terrain that 
covers the southern Snake River Plain, a broad lava plain made up of 
innumerable basalt lava flows that erupted during the past 5 million 
years.
    Prior to the recent proclamation, Craters of the Moon National 
Monument was managed solely by the National Park Service. The expansion 
area of the monument, however, consists of lands that had been 
administered by the Bureau of Land Management. The proclamation gives 
both agencies responsibilities for administering the monument 
cooperatively. The National Park Service has the primary management 
responsibility for the old monument, plus the approximately 400,000-
acre portion of the expansion area that consists of exposed lava flows. 
The Bureau of Land Management is responsible for administering the 
remaining portion of the monument.
    The proclamation specified that the NPS portion of the monument 
expansion is to be managed under the same laws and regulations that 
applied to the original monument. Since hunting has not been authorized 
in the original Craters of the Moon National Monument, the effect of 
the proclamation was to prohibit hunting in the NPS portion of the 
monument expansion. However, the Department supports a clarification of 
this language to allow the continued use of the lands in the expanded 
monument area for hunting. Hunting in the portion of the monument 
administered by the Bureau of Land Management is not affected.
    Furthermore, although the proclamation specifies that the National 
Park Service has jurisdiction over the exposed lava flows, the on-the-
ground reality is that there is not a precise delineation between areas 
of vegetation and areas of bare rock, making it difficult in many cases 
to determine the exact location of the boundary. For the average 
visitor or hunter, it would be difficult, if not impossible to 
distinguish whether they were on BLM lands or NPS lands, at least in 
the vicinity of the jurisdictional boundaries.
    The Department also recognizes that legislation to provide the 
authority for hunting within the NPS-managed portion of the monument 
expansion would give the Superintendent the ability to work 
cooperatively with the State of Idaho on issues concerning adjacent 
landowners. For example, hunting could be used as a tool in mitigating 
agricultural depredation caused by elk grazing on alfalfa crops on 
privately owned lands outside the monument.
    While the Department supports legislation to allow continued 
hunting in the NPS portion of the Craters of the Moon expansion area, 
this does not include support for opening to hunting the portion of the 
monument that existed prior to the proclamation of November 9, 2000. 
That portion of the national monument has always been, and should 
continue to be closed to hunting.
    In addition, I would like to clarify that the Department's position 
on this specific issue does not indicate support for opening other 
areas of the National Park System to hunting.
    While the Department supports the intent of H.R. 601 to open the 
NPS-managed portion of the monument expansion to hunting, we are 
concerned over the language in section 1(b) that appears to preclude 
any authority of the Secretary to exercise jurisdiction over the 
activity. We believe that the Secretary has a role to play, in 
cooperation with the State, to ensure that hunting is consistent with 
public safety, area administration, protection of the monument's 
resources, and public use and enjoyment of the monument. We have 
attached proposed language for the Committee's consideration that is 
consistent with similar provisions in laws that authorize hunting in 
other park areas.
    H.R. 601 also requires the Taylor Grazing Act to continue to apply 
to the disposition of grazing fees arising from use of the expansion 
area. The Act requires a certain percentage of grazing fees to be 
returned to the grazing district in which the use occurs. However, 
since no grazing occurs in the NPS portion of the expansion area and 
the proclamation does not affect grazing on the BLM portion, we feel 
this provision is unnecessary.
    This concludes my testimony on H.R. 601. I would be glad to answer 
any questions you may have.
    Proposed amendment to H.R. 601 On page 3, strike lines 10 through 
16 and insert the following:
    ``(b) Continued Access for Hunting.---The Secretary shall permit 
hunting on those portions of Craters of the Moon National Monument that 
were open to hunting before the issuance of Presidential Proclamation 
7373 of November 9, 2000 in accordance with the applicable laws of the 
United States and the State of Idaho. The Secretary, in consultation 
with the State, may designate zones where and periods when no hunting 
may be permitted for reasons of public safety, protection of the 
monument's resources, area administration, or public use and enjoyment. 
Except in emergencies, any regulations prescribing such restrictions 
relating to hunting shall be put in effect only after consultation with 
the appropriate state agency having jurisdiction over hunting.''.
                                 ______
                                 
    Mr. Hefley. Mr. Doddridge, let me just clarify, does the 
Department intend to object to every study or designation until 
the backlog is taken care of, not particularly Wild and Scenic 
Rivers, but any of them?
    Mr. Doddridge. I really cannot answer that question, Mr. 
Hefley. I think the Secretary is studying this issue right now. 
I would think for us to come up before you for the next four 
years to say that, well, we are getting there but we are not 
quite there yet, would probably be not the most prudent course 
of action.
    Mr. Hefley. I think that is going to be difficult. Do you 
know how many studies are out there that are yet to be 
completed?
    Mr. Doddridge. Mr. Chairman, I do not know that off the top 
of my head, but I will be glad to provide that for the record.
    Mr. Hefley. Okay.
    Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman. I have a 
question also for Mr. Doddridge on H.R. 146 and H.R. 182, 
because just last week we had a hearing where the 
Administration supported a study for the Ronald Reagan Boyhood 
Home. Do you have some criteria by which you decide when a 
study would be permitted and when a study would not be 
permitted?
    Mr. Doddridge. Well, I think as far as the bill that we 
were discussing, that there are other prudent courses of action 
that we could take. At the present time, until we exhaust 
those, I am not sure that we really need a study at this point 
in time. Are we talking about H.R. 146, Congresswoman?
    Mrs. Christensen. Yes.
    Mr. Doddridge. Okay. I think there is enough existing 
authority out there right now for the Park Service to work 
closely with the officials in Paterson, New Jersey, to make 
some progress. In fact, there are $3.3 million authorized right 
now, subject to matching funds. We, of course, would have to 
then go back to appropriations to receive those funds, but I 
think a lot of progress could be made.
    Mrs. Christensen. Well, I think you had the same objection 
to both of those bills, but I am still not clear. Even though 
there may be existing programs under which Paterson, for 
example, might get funding, you use the moratorium and the need 
to complete studies as the reason for your opposition, and I am 
still not clear what criteria do you use, since in the other 
instance the study was permitted?
    Mr. Doddridge. To tell you the truth, I am really not that 
familiar with the testimony on the Reagan Boyhood Home, but I 
will be glad to answer that question for the record.
    Mrs. Christensen. I guess my other questions would be for 
Mr. Fisher and Mr. Clower. It is my understanding that there 
are some unusual circumstances pertaining to the matters of 
this monument, why grazing or hunting might be permitted; 
perhaps I see one, keeping wildlife in check. Are there other 
unusual circumstances why we should continue to permit the 
hunting or the grazing in this area?
    Mr. Clower. Madame Chair, I will try to answer that if I 
understand the question correctly. In this general region, 
there is the INEEL, which is another government land closure 
area where we have wildlife; and the wildlife there, the State 
is not allowed to manage, and they have become increasingly a 
very large problem, depredation, mostly elk, and back in the 
late 1980's we had a large number of antelope that caused a 
large amount of depredation problems, and they stay in an area 
where they cannot be managed, and at night they maraud out on 
adjacent farmland and cause a great amount of damage to the 
crops, especially alfalfa, which is grown in this area. If we 
are not allowed to manage the wildlife, it becomes a burden on 
the taxpayers of the State of Idaho because they have to pay 
for the depredation loss.
    Mrs. Christensen. Mr. Fisher, you mentioned that there had 
not been any safety problems with hunting in the area, where 
hunting has been permitted. Would you anticipate any increase 
in safety issues with the expansion of the monument? There have 
not been any thus far, but now we are expanding the monument 
and hunting would continue in the expanded area. Are there 
provisions to protect individuals or do you anticipate that the 
safety issues would remain the same, even given the expansion?
    Mr. Fisher. I do not view this as a potential safety 
problem. This is a tremendously remote area that is basically 
roadless. The personnel that go into this area, they have to do 
so knowingly, and I know that there has been no incidents in 
this area that had previously been allowed to be hunted on, and 
I certainly would not anticipate any in the future from the 
continued use of hunting in the area.
    Mrs. Christensen. Can I just reserve the balance of my 
time, if I have other questions for the panel?
    Mr. Hefley. Sure. Mr. Simpson, since these are your 
witnesses here and we need to get them to an airplane, I would 
see if you have anything you would like to ask.
    Mr. Simpson. I am going to say, listening to the weather 
outside, I am not sure the airplane is going to leave.
    Mr. Clower, did not the State of Idaho previously manage 
the wildlife in that area? It was the Fish and Game Commission 
that set the rules and regulations and so forth, prior to this 
designation?
    Mr. Clower. That is correct. The Department managed all the 
wildlife in the State of Idaho, and we managed the wildlife in 
the expanded portion of the monument. We have hunting seasons 
and other regulations in place to manage the wildlife for the 
people of the State of Idaho.
    Mr. Simpson. Mr. Doddridge, you suggested that the 
language--that you were concerned about hunting under the 
jurisdiction and the laws of the State of Idaho, that you would 
like to see some language, alternative language, that includes 
consultation or something like that with the Secretary; is that 
correct?
    Mr. Doddridge. That is correct, Congressman, yes.
    Mr. Simpson. Do you have that language?
    Mr. Doddridge. Yes, we do. Do you want me to read it, sir?
    Mr. Simpson. Yes, if you would, please.
    Mr. Doddridge. The Secretary shall permit hunting on those 
portions of the Craters of the Moon National Monument that were 
open to hunting before the issuance of Presidential 
Proclamation 7373 of November 9, 2000 in accordance with 
applicable laws of the United States and the State of Idaho. 
The Secretary, in consultation with the State, may designate 
zones or periods where no hunting may be permitted for reasons 
of public safety, protection of the monument's resources, area 
administration or public use and enjoyment. Except in 
emergencies, any regulations prescribed in such restrictions 
relating to hunting shall be put into effect only after 
consultation with the appropriate State agency having 
jurisdiction over hunting.
    Mr. Simpson. So this language would effectively put the 
Secretary in charge?
    Mr. Doddridge. I think I would look at it, sir, that it is 
really putting both the State and the Secretary in charge. They 
would have to consult and agree on what areas are to be opened 
or closed if some such emergency exists.
    Mr. Simpson. Mr. Clower, what is your impression of that 
language?
    Mr. Clower. I guess my first question, Congressman, is if 
it came to an impasse, who would be the final decision maker?
    Mr. Simpson. That is kind of my concern, too. If you have 
got two people regulating something, who makes the final 
decision? That is why I say that would put the Secretary in 
charge with that language, as I understand it.
    Mr. Doddridge. Well, the Park Service presently allows 
hunting in 58 other units of the system, generally preserves 
and things of that nature, and work cooperatively with State 
agencies in the portions affected. In fact, one of the other 
places may be in the State of Idaho. It always seems that it 
works out that the Superintendent there works with the State, 
at least that is my understanding.
    Mr. Simpson. Okay. Well, I appreciate that and I look 
forward to working with you to make sure that we get this 
language, because I think the Secretary should have some input 
and oversight over that also, and I do not have a problem with 
that, and I look forward to working with you to clarify that, 
and maybe at the markup in the Full Committee we will offer an 
amendment that we can work out that will do that.
    Mr. Doddridge. Thank you, Mr. Simpson. We look forward to 
working with you, too.
    Mr. Simpson. I might also say, if I might, just for the 
record, Mr. Chairman, the reason that the area relative to the 
Taylor Grazing Act is in this legislation, it was brought to 
our attention by several individuals who had talked with--you 
know this is talked with and they told me and this kind of 
stuff--several of the ranchers were concerned about the 
distribution of the fees under the Taylor Grazing Act, in that 
area that is administered by the BLM. The BLM, the Idaho 
director, said certainly we will distribute those fees as the 
Taylor Grazing Act says we should, and so consequently this 
language is not necessary. It is rather redundant. I do not 
have any problem with actually putting it in statute, because 
if at some point in the future you decided to consolidate 
management of this expanded area under the National Park 
Service, instead of the National Park Service and the BLM, in 
that case all of the grazing fees would probably go to the 
National Park Service, I would suspect. Right now, those fees, 
according to the Taylor Grazing Act, are distributed to the 
Federal Government, the local BLM and the local grazing 
districts, to manage the land and so forth. So even if it is 
unnecessary and redundant to have it in there, I do not have a 
problem having it in there, and would just as soon have it in 
there as not.
    Thank you, Mr. Chairman.
    Mr. Hefley. Thank you. Any questions on this side? Any 
questions over here?
    Mr. Simmons. Yes, Mr. Chairman, if I could, a quick 
question to Mr. Doddridge. It is my understanding from his 
testimony that his organization is seeking a temporary 
moratorium on new studies, and the words seeking and temporary 
are of interest to me, obviously. Has this temporary moratorium 
been granted? Are we in a moratorium status at this point? If 
so, what do we mean by the word temporary?
    Mr. Doddridge. I think what we mean, Congressman, is that 
as far as the Administration is concerned in our testimony 
before various Committees, that is our position at the moment. 
Unfortunately, as I mentioned to the Chairman, I do not have a 
full explanation of the word temporary or how long this is 
going to last, but as I said, I did not think it would be 
prudent for us to continue to come up here before the Committee 
and use those words.
    Mr. Simmons. I thank the Gentleman for that answer. I would 
also share with the Committee what has already been stated in 
part, two years of work have gone into this project bringing it 
to this point. The University of Connecticut has expended 
substantial resources on studying the Eightmile River and have 
put out a publication, which is simply the tip of the iceberg. 
So in actual fact a huge amount of work and money has already 
been invested in the project. I cannot believe that this study 
would create such a financial burden to the Federal Government 
or an administrative burden to the Federal Government, that it 
would bring it to a halt.
    So I look forward to working with the Committee on this 
initiative, sharing with the Committee and with the 
Administration all of the materials that we have developed in 
the hope that this temporary moratorium will, in fact, be 
temporary and that we can move forward on this important issue.
    Thank you, Mr. Chairman, for your courtesy.
    Mr. Hefley. Thank you very much.
    Mr. Gilchrest?
    Mr. Gilchrest. Just a question to Mr. Simmons. Is the 
eight-mile stretch of this river designated as wild and scenic 
from a State perspective? Has the State designated this wild 
and scenic?
    Mr. Simmons. The State has determined that the prospect of 
wild and scenic status for this river is of sufficient priority 
that the State has expended resources, but only the Federal 
Government can provide this status under the Act, and that is 
why we are here today. Only the Federal Government can help us.
    Mr. Gilchrest. I understand the State of Maryland has an 
ability to designate a river wild and scenic under State 
regulations and State law, and then, if you get on top of that 
Federal designation, that emphasizes something a little bit 
more; but the State has--I would hope that while the Department 
of Interior is negotiating how long this moratorium will be, 
that the State of Connecticut pursue this aggressively, because 
the bottom line is you are trying to protect that river.
    Mr. Simmons. Absolutely correct. We do not have such 
language at this point in time, but I will certainly share it 
with my colleagues back in Connecticut; and yes, we do not want 
to delay the project, because there is development pressure in 
eastern Connecticut, and this unique resource could be lost to 
us over the next decade.
    Mr. Gilchrest. I wish you well; and Mr. Fisher, Mr. Clower, 
Mr. Doddridge, you all had excellent testimony, and we will 
help Mr. Simpson pursue what will benefit the Nation and the 
people of Idaho. I just had a couple of quick questions. We 
talked about hunting issues. Are there trapping issues in this 
area that was designated--the expansion of the monument; any 
trapping issues that are similar to hunting issues that might 
be ensnared by this process?
    Mr. Clower. In Idaho statute, trapping is just a subheading 
under hunting, because we talk about hunting as pursuing and 
the take of wildlife, so it is the same issue, Congressman.
    Mr. Gilchrest. What is trapped there?
    Mr. Clower. Coyotes would be trapped, if necessary. You 
also have bobcat season. There are several other small 
furbearers.
    Mr. Gilchrest. Wolverines?
    Mr. Clower. No, sir. The Wolverine is protected in the 
State of Idaho.
    Mr. Gilchrest. I see. And the grazing activity can be 
worked out, since it does not seem to be an impact based on the 
expansion of the monument, but for future use that might be 
beneficial for those people who depend on that. Just out of 
curiosity, are there any other predators for the antelope, elk 
or deer other than man?
    Mr. Clower. Yes, sir, Mr. Congressman. Bobcats and coyotes 
would be the number one predator out there for--for the 
antelope or the deer, especially during this time of year when 
they are having their young, and there are a large number of 
coyotes in this area, and coyotes are hunted year-round in the 
State of Idaho.
    Mr. Gilchrest. It sounds like a little critter we have in 
Maryland called nutria; you just cannot get rid of them. Well, 
in all of this activity, I wish all of you well, and we will 
work with Mr. Simpson to get this done.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Chairman, we 
have witnesses, as you well know, that will be coming up, but I 
must take exception, if I may, with the policy statement 
dealing with the deferment, when I know what the funding has 
been and how, in a bipartisan way, this Committee over the past 
few years has come together to address the interests of all 
Americans. I have to take exception with the policy, if that is 
a policy. We have before us three bills today, all important, 
and I have supported wildlife measures since I have been in the 
Congress; one from Idaho, one dealing with Connecticut, one New 
Jersey; you might say that the whole landscape, rural, 
suburban, and urban.
    It is interesting that my plea before this Committee, and I 
cannot speak for Mr. Simmons, but knowing his testimony, 
understanding and hearing his testimony, we are talking about 
the center of economic development, and we are talking about 
precipitating economic development. This is the main purpose 
why we both, for different reasons and in different places, 
come before this Committee and humbly say that our history is 
laid out and it is very, very clear. Just because we cannot 
compare--you know, I do support a project dealing with hundreds 
of thousands of acres, and we are talking about a very small 
piece of property compared to that--nonetheless it does not 
diminish the priority. Nonetheless it does not diminish, in any 
manner, shape or form, the significance.
    So because we have not funded totally what should have been 
funded, and we have not been able to keep up with maintenance, 
is not the fault of the people on this Committee. I have to 
take exception with that policy, if it is a stated policy, 
because that means it will, in many ways, fix the color of what 
is to come before this Committee in the future. I would ask you 
to please consider what we have stated on the record. I can 
speak for myself. I am sorry. I did not mean to speak for Mr. 
Simmons--that you humbly consider what we are saying, because 
first of all it is either needed or it is not needed and, if it 
is needed, we need to find a way to do it.
    Both of these bills are authorization bills. They are not 
providing--appropriating money. That comes in the next step, 
and to be told at the very beginning that we should not even be 
here in the first place, since you should know the policy, to 
me is a bit disingenuous, if I do say so myself, Mr. Chairman. 
Thank you.
    Mr. Hefley. Thank you, and thank the witnesses. We 
appreciate you being here. I am sorry. I did not realize you 
had--I would recognize you.
    Mr. Holt. Mr. Chairman, I guess I want to understand better 
this deferment, because it seems to me that the Great Falls 
Historic District, and I commend my colleague, Mr. Pascrell, 
for his diligence in pursuing this and the work he has done to 
highlight this, even in his earlier professional incarnation as 
mayor, it seems to me that this district fills the bill for 
national historic landmarks as well as any place I can think 
of, I mean, where significant historic events occurred, 
prominent Americans worked and lived, areas that represent the 
ideas that shaped our Nation.
    I mean, this was the start, in many ways, you could argue, 
of American industry. This was the site where America began its 
ascent to industrial and mercantile dominance in the world. It 
is also a very beautiful sight. It is striking. It is one of 
the landmarks of New Jersey, and New Jersey is the most densely 
populated State in the country, and we have to work real hard 
to protect the treasures we have got. So I would hate to see 
this opportunity slip past, because we are only asking for a 
study here. As I understand, that is what the bill is.
    So I would ask--Mr. Doddridge, I suppose, is the best 
person to express this--what is the reason that you give for 
recommending a deferral of even a study of the appropriateness 
of this site?
    Mr. Doddridge. Well, Congressman, the reason I gave is that 
until the Administration gets a better handle on the $4 billion 
backlog of the National Park System, and how, keeping with the 
Administration's desire to eliminate that backlog within the 
next four or five years, we have asked for a temporary 
moratorium on designation of new units or studies. So it is 
really driven by the backlog and our ability to try to get our 
hands around that backlog and eliminate it.
    Mr. Holt. Well, the President, I am pleased to hear, has 
made a commitment to appropriating money to deal with that, or 
to recommending to us appropriation of money to deal with that 
backlog. The size of the study we are talking about, as I 
calculate it, is about one-hundred thousandth of the amount of 
money that you say is being considered here. For something as 
important to the history of the United States and, I should 
say, important to New Jersey, I think that is a small price to 
pay.
    Thank you, Mr. Chairman.
    Mr. Hefley. Thank you very much, and I think these were 
good comments. I would say to the Department, I commend you on 
the one hand for emphasizing getting your arms around this 
backlog. This Committee wants you to get your arms around the 
backlog, too. I am a little concerned with a $4 billion 
backlog, it looked like in your budget you are going to ask for 
$500 million. It is going to take a long time over five years 
in order to get done, if that is the rate we go at.
    Secondly, even if we do not designate any more units, and I 
am not saying we will not, but even if we do not designate any 
more units to the Park System during this moratorium, I think 
you are going to have trouble holding that policy of no new 
studies, because it appears to me that we have some areas that 
we are going to lose if we do not take some action. If we put 
them in a study area, then we can protect them during that 
period of time. When the moratorium comes off, if you have done 
the studies, then we have a priority list of what you think is 
important to the units of the Park System. So the idea that we 
will not ask you to do additional studies, I think, is a little 
far-fetched. The idea of whether or not we will designate 
additional units under this moratorium, I think that has yet to 
be decided, but I would just send that message back to you and 
you may figure out some way that you can come to us with some 
kind of a compromise on this.
    Mr. Doddridge. Mr. Chairman, you can be sure I will take 
that message back down the street.
    Mr. Hefley. All right. Thank you very much. Thank you 
Gentlemen from Idaho for coming all the way out here. We 
appreciate it. We hope you have a safe trip back. I want to ask 
Mr. Pascrell if you would introduce our first two members of 
this panel, and I am going to ask Mr. Simmons if he would like 
to introduce the second two members of this panel.
    Mr. Simmons. Thank you, Mr. Chairman. That would be my 
honor and I appreciate again the indulgence of the chair and 
the support of the members as we consider this bill. We have 
before us Sue Merrow, who is the First Selectman of East 
Haddam. That makes her the Mayor and the Chief Executive 
Officer of that town. That is one of three towns that are 
sponsoring this legislation. I should also say that she has 
been very active in environmental issues, so she brings a nice 
balance between the municipal interest, which goes to taxes and 
goes to economic development, and the environmental interest, 
which, of course, for a small State like Connecticut is 
critically important. Then she is joined by Nathan Frohling, 
who represents The Nature Conservancy. I think most of the 
members are familiar with that national level organization. I 
am pleased they are both here and I am excited to hear their 
testimony.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman. I have two 
representatives from Paterson, New Jersey joining us today. One 
is an Anna-Lisa Dopirak, who is the director of community 
development for the city. Anna-Lisa has been working for the 
city of Paterson for many, many years. She is a former mayor of 
the city of Paterson, and was the business administrator when I 
was the mayor. So I am prejudiced. She has been working toward 
revitalizing the Great Falls Historic District for as long as I 
can remember. She is an invaluable leader within the city 
government, Mr. Chairman, members of the Committee, and I am 
thankful for her leadership.
    Also with us today is Pat DiIanni, who is the founder and 
president of Vision 20/20, which is a community organization 
that provides grassroots support for the revitalization of 
Passaic County, including the Falls District, and for the past 
several years Vision 20/20 has been a community leader on the 
issue of the Great Falls.
    Mr. Chairman, thank you.
    Mr. Hefley. Thank you and let's deal with the Paterson 
issue first, whichever one of you would like to begin.

STATEMENT OF ANNA-LISA DOPIRAK, DIRECTOR, COMMUNITY DEVELOPMENT 
         FOR THE CITY OF PATERSON, PATERSON, NEW JERSEY

    Ms. Dopirak. Mr. Chairman, good afternoon, members of the 
Committee. My name is Anna-Lisa Dopirak. I am the director of 
community development for the city of Paterson. I am here today 
on behalf of the citizens of Paterson to convey our support for 
H.R. 146, the Great Falls Historic District Study Act of 2001. 
In 1791, Alexander Hamilton fostered the Organization of the 
Society for Useful Manufactures. We call it today SUM. He did 
this because he saw the need to free our young country from 
dependence on foreign manufacturers, and he knew that by 
harnessing the water power of the Great Falls of the Passaic 
River, this could be accomplished.
    After the establishment of the SUM, the mill district 
evolved over many years, and it was involved in such things as 
textile manufacturing, sailmaking, locomotive construction and 
the thing for which we are most famous, the production of silk. 
The Great Falls Historic District became a physical and 
cultural textbook of the United States labor movement and its 
immigrant history, and it continues that today. It mirrored the 
prosperity and the recessions of the 18th, 19th, and 20th-
century economic history.
    For 150 years, the mills endured. Generations of families 
continued to work in them. But in the years following World War 
II, major social and economic changes occurred in this country. 
In the 1950's and 1960's, the mills were seen to be obsolete, 
as people moved away and manufacturing moved out into the 
suburbs. It was believed that the item the mills could be most 
useful for was to become a highway right-of-way. In fact, the 
mill area was designated to become a highway right-of-way. 
Acquisition and some demolition was actually begun by the 
Department of Transportation of the State of New Jersey, and 
only because a small group of dedicated citizens saw what we 
were about to lose, did this change.
    The small group of citizens was instrumental in 1970 in 
having the Great Falls of Paterson, and the SUM historic 
district, placed on the National Register of Historic Places. 
That stopped the highway. In 1976, as we heard before, then-
President Gerald Ford came to Paterson for the purpose of 
declaring the Great Falls SUM a historic landmark district. One 
year later, in 1977, the raceways and the water power systems 
that made the SUM what it was declared a National Historic 
Mechanical and Civil Engineering Landmark District. Today, 
2001, we are seeking a designation to become possibly a unit of 
the National Park System through a study which would be funded 
by H.R. 146.
    The architectural, natural and historic resources, as well 
as community support, are in place, we believe, to warrant 
consideration of our request, and that is why we are here 
before you today. Since the district's designation in the 
1970's, the city has undertaken a very proactive role to 
preserve its heritage. It has established a historic 
preservation commission. It has become a certified local 
government for preservation. It has worked with developers, 
both for profit and not for profit, to rehabilitate, as well as 
to reconstruct, sensitive sites within our historic district. 
Mills have been converted. Today mills have become residences, 
offices, private schools, and a museum.
    Our Federal partnership was established back in the 1970's 
when we were awarded a grant from the United States Economic 
Development Administration for the early work in the historic 
district. Later, as it was said before, in the early 1990's we 
established a partnership with the National Park Service, and 
that partnership continues today. We are going back to the 
United States Economic Development Authority because we have 
recognized that one of our most underrated assets is the 
Passaic River, and we have an application in to the U.S. EDA to 
assist us in studying the river, along the entire length of the 
river, not just that part of the river that traverses the 
historic district.
    If the district becomes a part or a unit of the National 
Park System, we think this would be a very fitting tribute to 
Alexander Hamilton. If you remember your early history, 
Alexander Hamilton and Thomas Jefferson engaged in a great 
debate, should this country develop with an agrarian society or 
should this country develop with an industrial society? We know 
that Alexander Hamilton won the debate, and so we feel that 
this is why it would be a fitting tribute. Today our country is 
well known mostly for its industrial prowess.
    Hamilton foresaw the national potential of the SUM historic 
district and its manufacturing base, and today the historic 
district continues to tell this national story. The locomotives 
that were manufactured here helped to build the Panama Canal. 
They also helped to move the silver ore from Jerome to the 
smelter. Colt pistols, the gun that won the West, they had 
their start in the historic district. In fact, the mill in 
which they were developed still stands. It is in pretty bad 
condition, but we have stabilized it and we are looking for 
ways to rebuild it to its original configuration. The Wright 
engine, although not manufactured in the historic district, was 
certainly manufactured in Paterson as part of its industrial 
history. The Wright airplane engine, which powered Lindbergh's 
flight to Paris, was made in Paterson. It also supplied the 
parts of the engines that the Tuskegee Airmen used. Ellis 
Island, so close to us, our history of immigrants that came 
through Ellis Island--they no longer come through Ellis Island, 
but we consider that a major part of our history. In an odd 
way, the historic district even has reached out to the rarefied 
world of art.
    If you go today to the Metropolitan Museum in New York 
City, you will see many exquisite objects that have been 
acquired by the museum through the Rogers Fund. For many years, 
I visited the museum and I never connected the Rogers Fund with 
the Rogers Locomotive Erecting Shop from Paterson. In fact, 
when I inquired, it was only through a bequest from that very 
same Rogers family that that fund was made, and that particular 
heritage of the Great Falls Historic District is available for 
everyone who comes to that museum.
    Just over 200 years ago, Alexander Hamilton himself came to 
the Congress of the United States. He urged the Congress to 
establish, as well as support, a national manufacturing center 
which had the Great Falls as its focus. Congress did not heed 
his request, but Ladies and Gentlemen, the legacy of Hamilton 
endures today in our historic district. So I hope you will give 
support to H.R. 146. It is a fitting tribute to Hamilton, and I 
like to think it represents a 21st century manifestation of his 
original request to this august body.
    Thank you.
    [The prepared statement of Ms. Dopirak follows:]

STATEMENT OF ANNA-LISA DOPIRAK, COMMUNITY DEVELOPMENT DIRECTOR, CITY OF 
        PATERSON, PATERSON, NEW JERSEY, ON H.R. 146 <PLUS-MINUS>

    Good afternoon Chairman Hansen and Honorable members of the Sub-
Committee. I am honored to be before you today to discuss the city of 
Paterson's support for the Great Falls Historic District Study Act of 
2001. This is an important juncture in the Historic District's long 
history and the culmination of years of effort.

                        A CAPSULE EARLY HISTORY

    In 1791, Alexander Hamilton fostered the organization of the 
Society for Establishing Useful Manufactures (SUM) to harness the 
waterpower of the Great Falls of the Passaic River so that the young 
United States could be independent of foreign manufacturing. The mill 
district evolved over the years to include textile manufacturing, sail 
making, locomotive construction, and the production of silk. It became 
a physical and cultural textbook of the United States labor movement 
and its immigrant history. It mirrored the prosperity and recessions of 
19th and 20th Century economic history. For 150 years the mills 
endured. Their products changed, and generations of families continued 
to work in them, but in the years following World War II major social 
and economic shifts occurred.

                           A THREAT REVERSED

    In the 1950's and 60's, highways and suburbs grew, and the mills 
and the Great Falls neighborhood district were threatened. The mills 
were believed to have outlived their usefulness and their neighborhood 
became the designated area for a new highway. Acquisition and some 
demolition by the State Department of Transportation began. It was only 
through the determined persistence and not always welcomed efforts of a 
small group of citizens that the Great Falls of Paterson and Society 
for Establishing Useful Manufactures Historic District was listed on 
the National Register of Historic Places in 1970, and the highway was 
stopped.
    In 1976, the Federal Government designated the 108 acres around the 
falls as the Great Falls/Society for Establishing Useful Manufactures 
National Historic Landmark District. In 2001, the city of Paterson 
seeks designation of the District (GFHD) as an Urban National Park. We 
believe the basic infrastructure in terms of natural, historic, and 
architectural resources and community support is in hand for serious 
consideration of national park status. The city of Paterson is 
committed to working with our residents, Passaic County and its other 
municipalities, and the state and Federal Government to make the Great 
Falls/SUM Historic District a unit of the national park system. 
Therefore, we support H.R. 146, the Great Falls Historic District Study 
Act of 2001.
    Since the 1970 designation as a national district, the small group 
of early historic district advocates has grown into a large group of 
stakeholders. Patersonians may not always agree on exactly how to 
develop the GFHD's assets, but we all do agree that the GFHD warrants a 
Federally supported review as an urban national park candidate. The 
designation of the Great Falls as a unit of the national park system 
would be a fitting Federal monument to Alexander Hamilton. Decades past 
his death, he ultimately won the debate with Jefferson of industrial 
versus agrarian development for the United States. His view prevailed, 
and today our country is known foremost for its industrial prowess.

                             PATERSON ACTS

    Since the 1976 historic landmark designation, the city established 
a historic preservation commission, became designated as a certified 
local government to strengthen our local preservation efforts, and 
encouraged both for-profit and non-profit developers though multiple 
funding sources to rehabilitate and/or re-construct historically 
sensitive sites in the district. These include the city's 1970's 
restoration of the Ivanhoe Wheelhouse, and the construction of the 
Upper Raceway Park utilizing New Jersey Green Acres funds.
    In the late 1970's through the 1980's, the City administered a 
USEDA Title IX grant of 11.1 million dollars. This grant permitted the 
total renovation of the Rogers Locomotive Erecting Shop into the 1st 
floor Paterson Museum and upper three floors of office space. The city 
entered into an agreement with the Great Falls Preservation and 
Development Corporation (GFPDC) for the long-term lease of the 
structure. Simultaneously, basic infrastructure improvements including 
design and installation of street furniture, lighting and landscaping 
were completed. A new open space, Cianci Park, was created on a former 
parking lot, and archaeological studies related to these projects, and 
others, were completed. The restoration of the facade of the Union 
Works Mill opposite the Paterson Museum was completed and protected 
through a facade easement the city holds on the building that houses a 
private school and day-care center.
    Throughout the 1980's mills became residences and offices: these 
include the Franklin Mill (offices), the Essex and Phoenix mills 
(residences) the Ryle-Thompson Houses (offices), and the Argus Mill 
(charter school). In 1991, the Port Authority of New York-New Jersey 
was invited by then Mayor Bill Pascrell to prepare a study on the 
economic development opportunities of the Great Falls Historic 
District. Shortly thereafter, in 1992, 4.2 million dollars were 
appropriated by Congress through former Senator Frank Lautenberg's New 
Jersey Urban History Initiative (UHI) funding program. The UHI funds 
are under the auspices of the National Park Service (NPS) Mid-Atlantic 
Regional Office. The NPS staff has been working with representatives of 
the city of Paterson (the Core Advisory Group) and organizations and 
developers active in the preservation of the Landmark District. Project 
activities funded through the UHI are intended to provide a more 
formalized basis for development. They include:
        * design guideline for the GF/SUM National Historic Landmark 
        District
        * environmental assessment of the seven-acre ATP site
        * preparation of the draft programmatic agreement for the ATP 
        site
        * condition assessment of buildings in the District
        * Maxman Report--Historic Industrial Site Analysis ATP Site--
          a pre-development assessment of the historic and 
        archaeological
          resources on the site and the feasibility of their retention 
        (or not)
        * public service and education in the District through the use 
        of
          AmeriCorps workers to undertake certain public works projects
          in the District
        * set-aside of district easement/rehabilitation revolving loan 
        fund
        * oral history project undertaken by the Library of Congress
          American Folklife Center
        * Making History--a community grant program awarded to local
          individuals or organizations for historical, artistic and 
        cultural projects
          related to the UHI
    At the same time as the UHI began, complementary development and 
planning efforts continued. Work progressed as additional funding for 
the Colt Gun Mill stabilization was secured. Completion of the first 
phase of the stabilization included recording and palletizing storage 
of the dissembled stonework. A revised programmatic agreement for the 
ATP site pre-development and development activities representing 24 
months of consultation among signatories and interested parties is 
drafted and awaiting further comments. The city continues to augment 
community support of the planning process through a combination of 
organizational and planning functions. These include the formation and 
support of the Downtown Paterson Special Improvement District (SID) 
(one of two SID's) and the establishment in 1999 of a Downtown Historic 
District on the New Jersey and National Registers. Municipal 
applications have been prepared and submitted to the New Jersey DOT-
TEA-21 Program for the Upper Raceway Park and Rogers Locomotive 
Erecting Shop Enhancements.

                         WHAT THE FUTURE HOLDS

    The importance of Paterson's river environment, the basis for 
Alexander Hamilton's vision, has belatedly been recognized politically 
and is moving forward under a grant application to the U.S. Economic 
Development Administration. If successful, riverfront planning 
extending nearly the entire length of the Passaic River in Paterson 
will be undertaken. At the same time, the City has submitted an 
application to the New Jersey Green Acres Program for the extension of 
a river walk along the Passaic River, east of the Great Falls.
    Support for a feasibility study of designating the Great Falls/SUM 
is not limited to Paterson, nor should it be. Others will address the 
support of Passaic County and surrounding municipalities, as well as 
the regional impact.
    Just over two hundred years ago, Alexander Hamilton petitioned the 
U.S. Congress to establish and subsidize a National Manufacturing 
Center with the Great Falls as its focal point. The request failed and 
the SUM chartered by the State of New Jersey resulted. Today, we have 
in Paterson the legacy of Hamilton's vision and an opportunity for the 
U.S. Congress to reconsider his request in its twenty-first century 
manifestation.
                                 ______
                                 
    Mr. Hefley. Thank you.
    Mr. DiIanni?

 STATEMENT OF PAT DiIANNI, PRESIDENT, VISION 20/20, HAWTHORNE, 
                           NEW JERSEY

    Mr. DiIanni. Good afternoon, Mr. Chairman and members of 
the Subcommittee. I would like to talk to you a little bit 
about Passaic County, because I do represent Vision 20/20, 
which is a Passaic County organization, established by the 
board of freeholders as a non-profit corporation. The 
population of Passaic County is a little less than 500,000. The 
lower one-third consists of old industrial areas intermixed 
with suburbs, but the upper two-thirds has beautiful ridges, 
rolling hills, placid lakes, and most important, the watershed 
for almost all of northern New Jersey.
    We want to preserve that watershed by preventing the 
expansion of development in that area. We want to make sure 
that it occurs in the already developed southern part of the 
county, and in improving the southern part of the county. The 
national park would be a very important keystone for the 
expansion and the development of all of Passaic County.
    Let me tell you something about Vision 20/20. It has over 
400 members. It has a board of trustees of 38 members; three of 
them are Freeholders; five of them are Mayors; Vice Presidents 
of two banks; the County Surrogate; professionals; business 
people; and the County Planner.
    Our membership is diverse politically, professionally, 
ethnically, gender- and age-wise. I dwell on this structure of 
Vision 20/20 so that you will understand that it speaks for all 
16 municipalities, since all 16 municipalities are represented 
on this body.
     Recently, Vision 20/20 passed a resolution in support of 
H.R. 146, and the idea of the Great Falls of Paterson. What has 
happened recently is that the concept or the possibility of 
getting a national park arose. There has been enough of an 
upwelling of enthusiasm from almost all segments of our 
population, The Board of Chosen Freeholders, which is the 
governing body of the county, adopted a resolution--I think it 
was last Thursday--to support this.
    The mayor of Prospect Park faxed a resolution from Prospect 
Park to my home at 10:30 last night. There are letters from a 
number of people, who are interested. We received a call 
yesterday from the office of State Senator John Georgenti, who 
assured us that a resolution has been or will be filed in the 
State Senate of New Jersey, and I understand the same thing 
will happen in the State Assembly of New Jersey. The business 
community is on board.
    I spoke to a representative of the umbrella group that 
represents four chambers of commerce in our community. They 
adopted a resolution unanimously in support of H.R. 146, and 
wished us well. As I talk to people on the street from all 
sections of the county, because I do travel all over the 
county, the enthusiasm is encouraging. They understand that 
this is the first step in the revitalization of the area, which 
is sorely needed in our county. I understand there was some 
question as to the feasibility of this park at the Great Falls 
of Passaic County.
    In Passaic County, we have many historic areas, and the 
park would be the pendant on the necklace of Passaic County's 
historic areas. For example, we have the New Jersey State 
Botanical Garden at Skylands Manor in Ringwood; the Ringwood 
Manor and Iron Works, which supplied cannonballs and other war 
materials to Washington's army; Long Pond Iron Works in West 
Milford, which also supplied war material to Washington's Army; 
and Federal Hill in Bloomingdale was a signal station to call 
the militia companies of northern New Jersey to defend the 
ridgeline, the first ridge of the Watchungs. It was fortified 
by the then-Governor of New Jersey, and throughout the entire 
Revolutionary War, it protected the important North-South 
Highway, which connected New England all the way south; 
Washington's headquarters at the Dey Mansion in Wayne; the site 
of Lafayette's headquarters in Hawthorne; the Botto House, the 
only American labor museum in the United States; Lambert's 
Castle and Observatory Tower; Morris Canal Park in Clifton; and 
the site of Washington's crossing of the Passaic. With all 
these treasures, the Great Falls National Park will be in good 
company.
    We want to be partners with the Federal Government in 
celebrating in a meaningful way the cradle of America's 
industrial might. The residents of Passaic County will do and 
are doing their part to help provide the sinew and muscle to 
make this happen.
    All Americans ought to have an opportunity to visit, enjoy 
the birthplace of America's industrial greatness.
    Thank you, Mr. Chairman and members.
    [The prepared statement of Mr. DiIanni follows:]

       STATEMENT OF PAT DIIANNI, ESQUIRE, PRESIDENT, VISION 20/20

    Good afternoon Honorable Mr. Chairman and the honorable members of 
the Subcommittee.
    I hail from Passaic County, New Jersey, which has a rich heritage 
and a diverse natural beauty. There are old industrial centers in the 
southern portion about 12 miles west of New York City. The northern 
two-thirds of our county has rolling hills and ridges, a historic 
mining village, placid lakes and a watershed supplying potable water 
for most of northern New Jersey.

                                HISTORY

    There are the Great Falls in Paterson, the 3rd most populous city 
in New Jersey. These falls are 77 feet high and the 2nd largest in the 
northeast. Paterson is the 1st planned industrial city in the United 
States. Former Secretary of Treasury Alexander Hamilton foresaw the 
industrial capacity needed to make this country great and in 1792 he 
organized the ``Society for Establishing Useful Manufactures'' to 
utilize the potential of the Falls to power mills along the Passaic 
River. The first Colt Gun Mill, the Rogers Locomotive, the first 
Holland Submarine were all built in Paterson.
    A tale is told that during the encampment of the Continental Army 
along the Passaic River in Passaic County, General George Washington 
and several of his officers including his Aide de Camp, Alexander 
Hamilton, picnicked at the Great Falls. Twelve years later Mr. 
Hamilton, remembering the waterpower of the Falls, organized the 
Society for Useful Manufacturing chartered by the State of New Jersey 
under then Governor Paterson
    I understand that other testimony will be presented by other 
witnesses relating to the historic central role Paterson, the Great 
Falls and the Historic District played in the creation of our great 
industrial nation. However, I wish to mention a little known story.
    The First Ridge of the Watchungs, which overlooks the Falls, 
traverses Passaic County from north to south. During the Revolutionary 
War this ridge was fortified and manned by the militia companies of 
Northern New Jersey.
    The fortified Ridge protected the Great North-South Highway located 
west of the ridge. This ``Highway'' was the major line of 
communications available to the Continental Army connecting New England 
to the southern part of our fledgling nation. The interdiction of the 
Great North-South Highway by British Troops then encamped on the Hudson 
River, a mere 15 miles east, may have proven disastrous for the 
Continental Army.

                   PASSAIC COUNTY VISION 20/20, INC.

    I come before you as President and spokesman for Passaic County 
Vision 20/20, Inc. (Hereinafter referred to as ''Vision 20/20". Passaic 
County Vision 20/20 is a non-profit organization, incorporated in 1999 
by the Passaic County Board of Freeholders by unanimous, bipartisan 
resolution.
    Our over 400 members from all 16 Municipalities are volunteers 
dedicated to improving Passaic County. The 33 member Board of Trustees 
and five alternates include three (3) Freeholders, five (5) Mayors, 
Vice Presidents of two banks, the County Surrogate, the County Planner, 
business people, educators and professionals. Our members are diverse, 
politically professionally, ethnically, gender-and age-wise.
    Our corporate mission is broad and comprehensive. It mandates 
improving the economy, protecting the environment and preserving the 
history and cultures of Passaic County. The corporation has undertaken 
more than two (2) dozen projects as diverse as obtaining grants: (a) to 
install bike and walking paths, (b) to produce annual multicultural 
events, and (c) to promulgate a County-wide redevelopment ``Smart 
Growth'' plan to conform to the New Jersey State Development and 
Redevelopment Plan. The establishment of a National Historic Park at 
the Great Falls is one of our cherished hopes and a keystone for 
revitalization. Although we are embarking on many specific projects, 
our ultimate goal is to make Passaic County a better place in which to 
live, to work and to play.

   COMMUNITY SUPPORT AND ENTHUSIASM FOR H.R. 146 AND THE GREAT FALLS 
                             NATIONAL PARK

    I dwell on the structure of our organization to demonstrate to you, 
that we are broad based and non-political. We are in a unique position 
to read the pulse of the communities throughout Passaic County. We 
assure you of strong support for the Great Falls National Historic 
Park.
    Lisa Macioci, a trustee, and members of her Great Falls National 
Park Task Force have worked assiduously over the past year and a half 
promoting the park concept. They report favorable and enthusiastic 
support among residents within and without Passaic County. The other 
trustees have noted similar expressions of support. Additionally, the 
Board of Chosen Freeholders of Passaic County has listed a resolution 
in support of H.R. 146 for its next open meeting.
    Recently a resolution was unanimously adopted by Vision 20/20 
trustees to communicate with local, county and state governing bodies 
and to launch a petition drive supporting H.R. 146 and the Great Falls 
National Historic Park proposal. Many Mayors, County Freeholders and 
State Legislators strongly advocate H.R. 146 and the Great Falls 
National Historic Park concept. Hopefully, resolutions will be adopted 
prior to the closing of the record of the hearing. In this regard, I 
respectfully move that the record remain open for a reasonable time 
after the conclusion of oral testimony.
    The general public and especially business people see the Park as 
an economic engine to spur the economy of Paterson and the entire area. 
The stakeholders of the county perceive tourism as the major county 
industry of the future. The Park will be a cornerstone for 
revitalization of the southern portion of the county while relieving 
pressure on the environmentally sensitive northern two-thirds of the 
county and the adjacent Highlands region, presently the focus of some 
developers' attention.
    The Park has the wholehearted support of the business community, 
environmentalists, historic preservationists, and John Q. Public. In my 
travels around the county, I have yet to meet anyone, who does not 
strongly support the concept of the Great Falls National Historic Park. 
To the contrary, people wonder why the Federal Government has forsaken 
this national treasure.
    The Park is within two hours drive for tens of millions of 
Americans. Major railroads and highways crisscross the region 
surrounding the Great Falls. Interstate 80 passes within two miles of 
the site, The Garden State Parkway leads to within one mile of the 
site. The New Jersey Turnpike gives ready access to the Parkway from 
the south and from New England. New Jersey Routes No. 3, 4, 20, 46 and 
Interstate 287 pass within five miles of the Great Falls.
    The Great Falls National Historic Park will not stand alone. 
Passaic County has scores of historic sites nearby, not the least among 
these are:
    The New Jersey State Botanical Gardens at Skylands Manor in 
Ringwood.
    The Ringwood Manor and Iron Works which supplied cannon balls and 
other war materiel to Washington's Army.
    Long Pond Iron Works in West Milford.
    Federal Hill in Bloomingdale.
    Washington's Headquarters at the Dey Mansion in Wayne.
    The site of General Lafayette's Headquarters in Hawthorne.
    The Botto House American Labor Museum in Haledon.
    Lambert Castle and Observatory Tower in Paterson.
    Morris Canal Park in Clifton.
    Site of Washington's Crossing of the Passaic River at Aquan-nock 
Landing in City of Passaic.
    With all these treasures in the surrounding areas of Passaic 
County, the Great Falls National Historic Park will become the pendant 
in the pearl necklace of Passaic County, attracting tourists from far 
and wide.

                        PASSAIC COUNTY'S FUTURE

    Passaic County, through the efforts of Vision 20/20, was recently 
awarded a grant by the State of New Jersey to provide in-depth studies 
and to promulgate long term plans for ``Smart growth'' initiatives 
throughout the county. The studies and plans will address many aspects 
of county life in general and tourism in particular. The Park will be 
central to these plans to rejuvenate the county. We foresee the rebirth 
of the county similar to the Renaissance in other areas of the country, 
e.g. San Antonio, Texas, Chattanooga, Tennessee, Baltimore, Maryland, 
and many others too numerous to list.
    We ask only to be partners with the Federal Government to celebrate 
in a meaningful way, the cradle of America's Industrial Power. The 
residents of Passaic County will do and are doing their part to help 
provide the sinew and muscle to make this happen. All Americans ought 
to have an opportunity to visit and enjoy the birthplace of America's 
Industrial Greatness.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Ms. Merrow? Okay. Mr. Frohling?

  STATEMENT OF NATHAN FROHLING, PROGRAM DIRECTOR, THE NATURE 
              CONSERVANCY, MIDDLETOWN, CONNECTICUT

    Mr. Frohling. Mr. Chairman and members of the Subcommittee, 
I am pleased and delighted to be here today and to present The 
Nature Conservancy's support for H.R. 182. As you may know, The 
Nature Conservancy is an international non-profit organization 
dedicated to preserving the plants and animals and natural 
communities that represent the diversity of life on earth. We 
have over one million members and have protected over 12 
million acres in the United States and Canada. We work very 
closely with local communities and in strong partnerships with 
both public and private landowners. Our Tidelands Program, 
which I direct in Connecticut, seeks to protect key ecological 
areas within a 560-square-mile region of the lower Connecticut 
River, this region, again known as the Tidelands, has received 
considerable acclaim over the last 10 years, being named one of 
the 40 last great places in the western hemisphere and also 
being included under the international Ramsar Convention, among 
other recognitions. The Eigthmile River is part of this area, 
and it is a top priority for The Nature Conservancy.
    It is rare to find entire ecosystems intact throughout 
their range, especially on the East Coast. But the Eightmile 
River watershed is one example, one last remaining example that 
we have, of such an ecosystem; 85 percent forested, as is 
demonstrated by the map that you see on my left. Picture that 
as a fall day, by the way, a lot of orange and yellow there, a 
lot of fall colors in the forest; 85 percent of this watershed 
is forested and it contains the largest unfragmented forest 
region in coastal Connecticut. Nine thousand four hundred acres 
of this watershed are in permanent protection. That is about 25 
percent.
    The Eightmile River system is free-flowing, and the water 
quality of its extensive wetlands and watercourses is excellent 
throughout. From native brook trout to blueback herring, the 
river system is a haven for fish, both in terms of diversity 
and abundance. It contains globally rare species and has the 
internationally recognized tidal marsh, freshwater tidal marsh, 
at Hamburg Cove. There are some other smaller things we do not 
often see, native submerged aquatic vegetation and freshwater 
mussels further testify to the fact that this is a very healthy 
ecosystem.
    It is also within the State's elite in terms of the insects 
and mayflies and beetles and snails, the things that we do not 
see, but reflect a really special system. There is also the 
scenic beauty and an abundance of recreational opportunities 
here that make this highly regarded by the communities that 
live in this area, and as a river on the nationwide rivers 
inventory, there is little doubt that the Eightmile River 
system contains outstandingly remarkable values. The greatest 
threat to these is incremental, unplanned growth, and while 
growth is inevitable, the question is whether it will be 
managed to sustain the nationally outstanding values here.
    Six years ago, the Eightmile River watershed project was 
formed by local citizens and officials, the University of 
Connecticut and The Nature Conservancy to initiate a new model 
for balancing conservation and growth within a watershed. Now, 
having expended great energy and having generated considerable 
information, this is one of scores of maps that have been 
developed for this watershed. Also, having witnessed tremendous 
community interest over these years, we now look to support a 
community process of self-determination. A Wild and Scenic 
River study is the best vehicle for achieving this goal, and 
that is because the process associated with designation and the 
study process provides the incentive, the structure, the 
expertise and the resources needed for the communities to come 
together and collectively identify the issues and goals they 
have for this resource and to set forth the means for achieving 
those goals. The study that we seek today is being sought as 
much to facilitate this community self-determination as it is 
to achieve the designation.
    Wild and Scenic River designation would also offer special 
important protections that we in the local communities cannot 
otherwise avail ourselves of, nor can we avail those 
protections at the State level, either, I might add. Widespread 
support exists for the study, as letters and newspaper 
endorsements will testify. The communities are ready to do 
their part. A small Federal contribution through this study can 
leverage a very large local effort, and the value associated 
with sustaining a national treasure.
    The study would leverage the kind of volunteer, community-
based initiative that has been hailed for sustaining the fabric 
of our communities, and I might add it would not require 
Federal land acquisition, it would not involve Federal land 
management, it would not become a Federal park. Time is 
critical. Not only is some of the resource being lost every 
day, but the community's determination, confidence and 
readiness is tied to the momentum that has been created over 
the last six years. The people of these communities are looking 
for your support.
    Thank you very much for this opportunity to testify in 
support of H.R. 182, and I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Frohling follows:]

     STATEMENT OF NATHAN M. FROHLING, TIDELANDS PROGRAM DIRECTOR, 
              CONNECTICUT CHAPTER, THE NATURE CONSERVANCY

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in support of 
H.R. 182, legislation to authorize a Wild and Scenic River Study for 
the Eightmile River in Connecticut.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We currently have programs in 
all 50 states and in 27 foreign countries. To date we have protected 
more than 12 million acres in the 50 states and Canada, and have helped 
local partner organizations preserve 60 million acres overseas. The 
Conservancy owns and manages 1,342 preserves throughout the United 
States, the largest private system of nature sanctuaries in the world. 
Sound science and strong partnerships with public and private 
landowners to achieve tangible and lasting results characterize our 
conservation programs.
    As Director of the Tidelands Program, I lead The Nature 
Conservancy's efforts to conserve the Eightmile River system. The 
Tidelands Region, which includes the Eightmile River and its 39,900-
acre watershed, is a top priority for The Nature Conservancy in 
Connecticut. The Tidelands contains extensive yet globally rare tidal 
marsh communities, globally rare and endangered species, and a regional 
landscape that is largely intact. The Nature Conservancy recognized 
this area in 1993 as one of the "40 Last Great Places in the Western 
Hemisphere.'' The Tidelands were designated in 1994 as containing 
Wetlands of International Importance under the Ramsar Convention and 
this area is recognized as one of the most outstanding areas within the 
boundaries of the Silvio O. Conte National Wildlife Refuge.
    I also serve as Co-Chair of the Eighmile River Watershed Committee, 
a group of local officials and citizens charged with implementing the 
Eightmile River Watershed Project. The goal of this project is to 
enable the three communities, Lyme, East Haddam and Salem, to balance 
conservation and growth in order to maintain the integrity of the 
watershed. Passage of legislation to authorize a Wild and Scenic River 
Study on the Eightmile River will significantly enhance community-based 
efforts to conserve the unique resources of this globally significant 
region.

The Eightmile River
    The Eightmile name is based on the distance between the location of 
its mouth at the Connecticut River and the mouth of Connecticut River 
at Long Island Sound. Extensive wetlands and watercourses combine to 
form the 10-mile-long East Branch, the 10 mile long West Branch, and 
the 5-mile main stem of the river. There are other major tributaries 
such as Beaver Brook, Harris Brook, and Fall Brook. The water quality 
throughout the river system is excellent. There are no known pollution 
sources. An old, minor source of potential pollution is the only reason 
the State has not classified the river at the highest drinking water 
classification. There has been no evidence of pollution.
    The Eightmile River system is one of the most significant aquatic 
resources within the Lower Connecticut River watershed and contains a 
number of outstanding and remarkable ecological, historical, cultural 
and recreational resource values. Within Southern New England, and 
particularly coastal Connecticut, it is uncommon to find entire 
ecosystems intact throughout their range, particularly at the scale of 
the 39,900-acre Eightmile River Watershed. From species to natural 
communities to its extensive wetland and watercourse system to its 
unfragmented forest, the Eightmile is an outstanding national treasure.
    Eighty-five percent of the Eightmile River Watershed is forested. 
Most notably this forest habitat is largely intact; it is the largest 
unfragmented forest region in coastal Connecticut. In total, about 65 
percent or 26,000 acres of the watershed is completely unfragmented and 
the remaining 35 percent are only sparsely developed. The watershed 
benefits from a high level of protection. The State of Connecticut, The 
Nature Conservancy, each of the towns, the local land trusts and others 
have conserved 9,375 acres or 23 percent of the watershed. The intact 
forest of the Eightmile River Watershed provides increasingly rare 
interior nesting bird habitat.
    The Eightmile River is virtually free flowing throughout its 
extent. The only dams of any significance have both had fish ladders 
installed. The River contains the various forms of aquatic habitat 
types such as pools and riffles, rocky whitewater sections, sandy and 
gravelly bottoms, waterfalls, and wide, slow sections. The riparian 
zones are largely intact throughout the river system. The river is 
considered by the Connecticut Department of Environmental Protection to 
be an exemplary occurrence of one of Connecticut's most imperiled 
natural communities--free flowing rivers and streams.
    The River system is a haven for fish, both resident and migratory. 
There is a great diversity and abundance of fish species that use the 
river throughout their various life stages. It is one of Connecticut's 
best trout streams. The River contains native brook trout, brown trout 
and rainbow trout, plus minnows, suckers and small-mouthed bass. 
Anadromous species include alewife herring, blueback herring, sea 
lamprey, striped bass, and sea-run brown trout. Efforts are underway to 
restore Atlantic salmon and American shad.
    Two globally rare plant species are known to exist in the Eightmile 
River system, Parker's pipewort and Eaton's beggar tick. The American 
bald eagle is also frequently found here. There are many more state 
rare species and habitats suitable for supporting such species. Hamburg 
Cove at the mouth of the river is an internationally recognized 
freshwater tidal marsh community.
    Along with these species and communities there are other key 
indicators of a healthy aquatic system. Extensive, native beds of 
submerged aquatic vegetation exist. Freshwater mussels are present and 
exotic mussels are not. One in ten American mussel species has gone 
extinct over the last century, and almost three-fourths of the 
remaining species are globally rare. The Eightmile River contains both 
the brook floater and eastern pearlshell mussel; both are protected by 
the Connecticut Endangered Species Act. The Eightmile River is in the 
State's elite for other small aquatic organisms such as mayflies, 
damselflies, dragonflies, beetles, snails, etc. Among several 
categories of insect life, the Eightmile exceeds all other sites 
according to state aquatic biologist Guy Hoffman.
    The Eightmile River and the watershed are highly prized by the 
three towns through which it flows--Lyme, East Haddam and Salem. The 
watershed is approximately one-third to one-half of the land area in 
each of these towns. It is a rural landscape with great scenic beauty 
and offers an abundance of recreational opportunities. It is one of the 
best rivers in Connecticut for fishing and it supports boating from 
canoeing and kayaking to power and sail in the river's downstream 
sections. Hiking, sightseeing, hunting, and nature observation are 
among popular activities within the watershed at a number of State 
Forest areas, Devil's Hopyard State Park, and three large preserves 
owned by The Nature Conservancy that are all open to the public.
    Much of the watershed's existing development is historic and well 
integrated into the landscape. The river and watershed's high quality 
defines the character of these three towns. It is at the heart of the 
quality of life enjoyed by area residents. Economic interests also 
recognize this because economic vitality here, primarily tourism, is 
largely based on that quality.
    The greatest threat to the special attributes of the Eightmile 
River and its watershed is incremental, unplanned growth. It results in 
landscape and habitat fragmentation, the loss of water quality, the 
loss of important species and natural communities, the intrusion of 
undesirable nuisance species, and obscures other qualities of this 
region. Change and growth is inevitable; for example, East Haddam is 
one of the fastest growing towns in the state. This issue is whether 
growth will be managed to protect and sustain the unique resource at 
the heart of this region. There are other potential threats such as the 
diversion of groundwater for water supply in distant towns or golf 
course irrigation that could leave the hydrology of the system 
seriously altered, especially during normally low-flow periods.
The Eightmile River Watershed Project and the Wild and Scenic River 
        Study
    About six years ago, the Eightmile River Watershed Committee was 
formed to pursue the Eightmile River Watershed Project. The group was 
comprised of local officials and citizens, with the University of 
Connecticut Cooperative Extension System (UConn) and The Nature 
Conservancy providing staff support and resource expertise. The EPA 
Region One and Silvio O. Conte National Wildlife Refuge provided 
funding. The project goal: balance conservation and growth in the 
watershed in ways that ensure the long-term social, economic, and 
environmental health of its communities.
    The focus of the project thus far has been the development of 
educational resources to support good land use planning and thoughtful 
stewardship by local landowners. One of the first achievements was the 
signing by town leaders in December 1997 of the Conservation Compact. 
This was an agreement between the three towns that committed each town 
to work together to protect shared natural and cultural heritage.
    Since that time, the thrust of activity has been in the use of 
computer-based geographic information system (GIS) technology to 
generate state-of-the-art maps and resource information about the 
watershed. Collectively these materials helped make it vividly clear 
just how unique and precious the Eightmile River Watershed is to those 
who live here. The results were shown to various audiences in the 
community through slide shows and presentations. They generated 
considerable interest and support for further action.
    The Nature Conservancy has worked closely with the Eightmile River 
Watershed Committee, each of the three towns, community groups and 
individuals. During this past year, we have collectively looked at how 
best to take the information gathered and community interest generated 
to accomplish tangible on-the-ground results for protecting the river 
and watershed. Together we have recognized that going back to the 
communities to directly involve them in decisionmaking about the future 
of the river and watershed was the best course of action and that a 
Wild and Scenic River Study is the best vehicle for doing so. There are 
several reasons a Wild and Scenic River Study is the best way to 
protect the Eightmile River.
    --The Eightmile River has the necessary outstandingly remarkable 
values to be eligible for designation.
    --A Wild and Scenic River Study, and the process associated with 
it, provides the structure, expertise, funding and facilitation needed 
for the communities as a whole to come together and collectively 
identify the issues and goals they have for the resource, and to set 
forth the means for meeting those goals. This is the heart of the 
matter; the conservation needed is most likely to come through 
community-based self-determination. Despite strong interest, it is not 
likely that such a community process will happen without the incentive 
of the Wild and Scenic River designation process. As important as 
designation itself may become, the pursuit of a Wild and Scenic River 
study now is being sought as much for the opportunity it provides to 
support community-based action and self-determination as it is to 
achieve the designation itself.
    --A Wild and Scenic River designation, if achieved, would offer 
important protections not otherwise available locally or through the 
State of Connecticut. Federally funded or permitted water resource 
related projects that would have a direct and adverse impact on the 
river would not be allowed under designation. There are several threats 
to the Eightmile where this may be important including, for example, 
adverse water diversions.
    --The Study would provide a greater level of scientific information 
than we have currently, which might be especially useful for future 
decisionmaking.
    --A Wild and Scenic River study represents the potential to bring 
in needed funds to support the community-based process that has been 
identified.
    --The Wild and Scenic River designation process would be built on 
local control. The ability to maintain local control over land use 
decisions is key.
    --The process would further facilitate coordination among the three 
towns.
    There has been wide`spread support at the community level for a 
Wild and Scenic River Study and for potential Wild and Scenic River 
designation. A concern for the future for the Eightmile River, a love 
of the Eightmile River Watershed area, and community pride have 
combined with a recognition that the Wild and Scenic River process 
offers an excellent tool to address these collective interests. Over 40 
letters from all levels of local government, community groups and 
individuals, including riverfronting property owners, have been 
submitted requesting the Study. Leading newspapers have carried 
editorials endorsing the Wild and Scenic River effort. These are 
summarized in the attached exhibits.
    Thank you very much for the opportunity to testify in support of 
H.R. 182. I urge the committee's favorable consideration of this 
important legislation. I would be happy to answer any questions from 
Members of the Committee.

   LETTERS REQUESTING A WILD AND SCENIC RIVER STUDY OF THE EIGHTMILE 
                                 RIVER:
                  SUBMITTED TO CONGRESSMAN ROB SIMMONS

Town Leaders:
    1. Lyme Selectmen; Ralph Eno, First Selectman
    2. East Haddam Selectmen; Sue Merrow, First Selectman
    3. Salem Selectmen; Jim Fogarty, First Selectman
     
Town Commissions:
     1. Lyme Conservation and Inland Wetlands Commission; Don Gerber,
        Chairman
     2. Lyme Planning and Zoning Commission; David Tiffany, Chairman,
     3. Lyme Open Space Committee; James Thatch, Chairman
     4. East Haddam Planning and Zoning Commission; Harvey Thomas, 
Chairman
     5. East Haddam Economic Development Commission; Edward Thereault,
        Chairman
     6. East Haddam Inland Wetlands and Watercourses Commission; 
Randolph Dill,
        Chairman
     7. East Haddam Conservation Commission; W. Nic Damuck, Chairman
     8. East Haddam Open Space Commission; Jon Modica, Chairman
     9. East Haddam Historical District Commission; Will Brady, 
Chairman
    10. Salem Planning and Zoning Commission; David Bingham, Secretary
    11. Salem Inland Wetlands and Conservation Commission; George 
Ziegra,
        Chairman
     
Community-based Committees:
    1. Eightmile River Watershed Committee; Jim Ventres, Nathan 
Frohling,
       David Bingham, Anthony Irving, Co-Chairmen
    2. East Haddam Community Planning Group; Deb Matthiason, Project 
Assistant
     
Community Civic Organizations:
    1. Lyme Garden Club; Janet Cody, Secretary
    2. Lyme Public Hall Assoc., Inc.; Parker Lord, President
    3. Lyme Cemetery Commission; Linda Bireley, Secretary
    4. East Haddam Civic Association; Timothy Johnson, Representative
    5. Bashan Lake Association, East Haddam; Bruce Fletcher, President
    6. Salem Historical Society; Dr. Milton Clark, Representative
     
Riverfronting Property Owners:
    1. Marilyn Wilkins, Lyme
    2. Betsy Woodward, Lyme
    3. Vivien Blackford, East Haddam
    4. John and Barbara Kashanski, East Haddam
    5. Jack Bodman, Salem
    6. Andrew Zemko, Salem
    7. Dr. Richard Goodwin, Salem
     
Town Residents:
    1. Janice and Richard Anderson, Lyme
    2. Mary Catherwood, Lyme
    3. Leslie Shaffer, Lyme
    4. Mary Platt, Lyme
    5. Betty Cleghone, Lyme Garden Club member
    6. Sebyl Martin, East Haddam
     
Conservation Organizations:
    1. Lyme Land Conservation Trust; Anthony Irving, President
    2. East Haddam Land Trust; Maureen VanDerStad, President
    3. Salem Land Trust; David Wordell, President
    4. The Nature Conservancy, CT Chapter; Nathan Frohling,
       Tidelands Program Director
    5. Connecticut River Watershed Council; Thomas Maloney, River 
Steward
    6. Potapaug Audubon Society; Dr. Milton Clark, Conservation 
Chairman
     
Leading Newspaper Editorial Endorsements:
    1. The Hartford Courant; November 2000
    2. The Day; December 17, 2000
     
    TOTAL:   43 
    [GRAPHIC] [TIFF OMITTED] T1154A.058
    
    [GRAPHIC] [TIFF OMITTED] T1154A.059
    
    [GRAPHIC] [TIFF OMITTED] T1154A.060
    
    [GRAPHIC] [TIFF OMITTED] T1154A.061
    
    [GRAPHIC] [TIFF OMITTED] T1154A.062
    
    [GRAPHIC] [TIFF OMITTED] T1154A.063
    
    [GRAPHIC] [TIFF OMITTED] T1154A.064
    
    [GRAPHIC] [TIFF OMITTED] T1154A.065
    
    Mr. Hefley. Thank you for that testimony.
    Ms. Merrow?

   STATEMENT OF SUSAN MERROW, FIRST SELECTMAN, EAST HADDAM, 
                          CONNECTICUT

    Ms. Merrow. Good afternoon. Mr. Chairman, members of the 
Committee, thank you for this opportunity to speak to you 
today. My name is Susan Merrow. I am currently serving my fifth 
term as First Selectman of the town of East Haddam, and on 
behalf of the people of my hometown, I come here before you 
today to urge your favorable consideration of H.R. 182, to 
study the Eightmile River for possible inclusion in the Wild 
and Scenic River program. We believe this waterway is of 
exemplary significance to my town, to our region and to our 
State. To tell you a little bit about East Haddam, we are a 
town of 7,620 people spread out over 57 square miles that are 
bordered by the beautiful Connecticut River. We have many 
things to be proud of in East Haddam.
    We are home to the Goodspeed Opera House, a restored 
Victorian theater that sent such well-known musicals to 
Broadway as "Annie" and "The Man of La Mancha". We are proud to 
be the home of U.S. Senator Christopher Dodd. We have beautiful 
old homes. We have a proud history of 19th-century water-
powered mills. We have two handsome State parks. We have 
beautiful unfragmented forest, and we are very proud to be 
bordered once again by the Connecticut River and the tidelands 
that Nathan has mentioned.
    Like any modern community, we balance these cultural and 
environmental resources against all the demands of a modern 
community, the need for a healthy economy, for jobs, for decent 
housing, for finding the money to build schools, yet over and 
over again, when asked, the citizens of my town speak out again 
and again, asking us to protect the natural resources of our 
town. They do this not just for reasons of nostalgia, but 
because we see it in our long-term economic best interest. We 
believe it just makes practical good sense. We believe that our 
tourism-dependent economy and we count as crucial to the 
quality of life that makes East Haddam a good place to live 
require that we do no less.
    We have embarked on a several-year planning process that 
has at its heart the notion that our environment and our 
economy are inextricably linked. We are actively planning as a 
community for environmentally compatible economic development 
which acknowledges and enhances the unique natural and cultural 
attributes of our town. We have invited our citizenry together 
to establish a list of community values of things we hold dear 
as a town, and prominent on that list is protecting the natural 
environment.
    All of this is by way of backdrop for my request of you 
that you give favorable consideration to our wish that you 
support funding for the study of what we believe is East 
Haddam's most remarkable natural resource, the Eightmile River. 
The main stem of the Eightmile River rises in my town and flows 
through hemlock gorges over a spectacular waterfall, alongside 
forest, fields and farms as it finds its way to the Connecticut 
River. The Eightmile River encompasses one-third of the land 
area of my town, and through a combination of great good luck 
and the fortunate foresight of our forefathers, the Eightmile 
River flows unrestricted and pure through an almost completely 
untrammeled landscape, which is a remarkable greenway. 
Significant stretches of the watershed are permanently 
protected by the State and by land trusts, but most of the land 
is in the hands of private landowners. The people of East 
Haddam have teamed up with the people from the other two towns 
in the watershed to educate themselves and others about this 
resource. Our theory is that if people know the resource, they 
will love it, and if they love it, they will make good 
decisions about it.
    We have worked with The Nature Conservancy and the 
University of Connecticut to amass a very large database of 
information about this river, about the forest and the wildlife 
habitat and the water quality. I have joined the First 
Selectmen of the other two towns in the watershed to create an 
agreement to work together to protect this resource. We have 
signed a compact. You will find a picture in this little 
booklet of the three of us signing the compact, which speaks of 
our commitment to balance conservation and growth by ensuring 
the long-term social, economic and environmental health--and 
the vitality of our communities in the watershed.
    I carry with me today the wishes and hopes of my colleagues 
in the other two towns in this watershed. Support for studying 
the Eightmile River for possible inclusion in the Wild and 
Scenic River program is broad and deep in all three watershed 
towns, from boards and commissions, to civic groups to the land 
trusts, we bring with us, as you know, today 43 letters of 
support from the people of our region.
    We feel very strongly that this is a very unusual and 
valuable resource, worthy to be listed alongside the great 
rivers of our country. My community and the others in the 
Eightmile watershed stand ready to do the work required to 
support a study and to make use of the information that will be 
developed. Ours has been a completely grassroots effort. We 
have brought our project a long way and we offer you now an 
opportunity to leverage that effort. We look to this program to 
help us take the next step, to help us retain control of our 
project locally, to help build the partnerships and to gain 
deserved recognition for this very special bit of unspoiled 
nature that graces my town and that we deeply hope will do so 
for generations to come. Thank you very much for this chance to 
speak to you today.
    [The prepared statement of Ms. Merrow follows:]

   STATEMENT OF SUSAN D. MERROW, FIRST SELECTMAN OF THE TOWN OF EAST 
                    HADDAM, CONNECTICUT, ON H.R. 182

    My name is Susan Merrow. I am currently serving my fifth term as 
First Selectman of the Town of East Haddam, Connecticut, about 30 miles 
southeast of Hartford. For those unfamiliar with old-fashioned New 
England small town government, the First Selectman is the Chief Elected 
Official, and in many towns like mine, also the Chief Executive 
Officer. I know that Connecticut is commonly regarded as a bedroom 
community for New York City. It comes as a surprise to many I meet from 
other parts of the country that eastern Connecticut is a remarkable 
swath of green and surprisingly open, rural land between Boston and 
Washington. On behalf of the people of my town, I come before you today 
to urge your favorable consideration for H.R. 182, a bill which would 
amend the Wild and Scenic Rivers Act to include a study of the 
Eightmile River, a waterway which we believe to of exemplary 
significance to my town, our region, and our state.
    East Haddam itself is a town of 7,620 people and 57 square miles, 
bordered by the magnificent Connecticut River. We have many things of 
which to be proud in East Haddam. We are home to the Goodspeed Opera 
House, a restored Victorian Theater that sent such well known musicals 
to Broadway as ``Annie'' and ``Man of La Mancha.'' We are proud to be 
the home of U.S. Senator Christopher Dodd. We have venerable old homes 
and farms, and a proud history of nineteenth century water-powered 
mills. We have two handsome state parks. One of these, which is called 
Gillette's Castle, draws thousands of visitors from all over the world 
to view the unusual stone mansion of actor William Gillette, made 
famous by his portrayal of Sherlock Holmes, and to gaze down upon the 
Tidelands of the Connecticut River as they stretch away to the south, 
toward Long Island Sound. These Tidelands have been identified under 
the Ramsar Treaty as ``wetlands of international significance.'' We 
have three handsome lakes, large stretches of unfragmented forests, and 
fishable, swimmable streams. Like any community, we balance these 
cultural and environmental resources against all the demands of a 
modern community the need for a healthy economy, for jobs, for decent 
housing, for funding to build schools. Yet, over and over again, when 
asked to help town planners strike a balance between stewardship and 
development of our natural resources, the people of my town speak out 
clearly for preserving and protecting the natural environment. We do 
this not just for reasons of nostalgia, but because we see it in our 
long-term economic best interest. We believe that our tourism dependent 
economy and what we count as crucial to the quality of life that make 
East Haddam a good place to live require that we do no less. We have 
embarked on a several-year planning process that has at its heart the 
notion that our environment and our economy are inextricably linked. We 
are actively planning as a community for environmentally compatible 
economic development, development which acknowledges and enhances the 
unique natural and cultural attributes of our town. Our planning 
process began with involving our whole citizenry in establishing a list 
of community values, things we hold dear, as a town such as our 
history, our education system, our tradition of volunteerism, and our 
love of the arts and protecting the natural environment is prominent 
among them. We have agreed as a community to take these values into 
account as we weigh plans for future direction and development. All of 
this is by way of backdrop for my request of you that you give 
favorable consideration to our wish that you support funding for the 
study of East Haddam's most remarkable natural resource, the Eightmile 
River, for possible inclusion in the Wild and Scenic River system. The 
main stem of the Eightmile River rises in East Haddam and flows through 
hemlock gorges, over a spectacular waterfall, alongside forests, 
fields, and farms as it finds its way to the Connecticut River. The 
Eightmile River watershed encompasses about a third of the land area of 
East Haddam. Through a combination of serendipity and the fortunate 
foresight of our town forefathers, the Eightmile River flows 
unrestricted and pure through an almost completely untrammeled 
landscape, a remarkable greenway. While significant stretches of the 
watershed are permanently protected from development by the State and 
by land trusts, most of the watershed is in the hands of private 
landowners. The people of East Haddam have teamed up with people form 
the other two towns in the watershed to educate themselves and others 
about this resource. Our theory is that, if people know the resource 
they will respect it, and if they respect it they will make good 
decisions about it. Toward this end, working with our state university 
and The Nature Conservancy, we have amassed a large data base of 
information about this river the forest resources of the watershed, the 
development patterns, its water quality and more. We have learned that 
our river is essentially free-flowing, has high water quality, 
excellent riparian habitat, extensive fresh water wetlands and 
submerged aquatic vegetation, healthy populations of fresh water 
mussels and native and stocked trout, and it supports a high diversity 
of fish species and healthy runs of migratory fish. On behalf of my 
townspeople, I have joined the First Selectmen of the other two towns 
in the watershed in creating an agreement to work together to protect 
this resource. I and my fellow First Selectmen from Lyme and Salem 
signed a compact which states in part, `` the Towns of East Haddam, 
Lyme and Salem enter into this voluntary Conservation compact that 
acknowledges our commitment to balance conservation and growth by:
    1. Protecting and enhancing the water resources of the watershed, 
including both the quality of the water and the integrity of normal 
stream and groundwater flows;
    2. Connecting and maintaining habitats and rural landscape 
throughout the watershed; and
    3. Ensuring the long-term social, economic, environmental health 
and vitality of the communities in the watershed.
    I carry with me today the wishes and hopes of my colleagues in the 
other two towns and their constituents. Those of you who have labored 
long in the fields of government will recognize how difficult it can be 
to make agreements that span political boundaries. ``Home Rule'' is 
practically carved into the seal of each of Connecticut's 169 
municipalities. Any agreement that suggests putting the interests of a 
region first is commonly regarded with suspicion. In the case of this 
compact to protect the Eightmile River, our citizens readily grasped 
the notion that since rivers do not conform to political boundaries, 
neither can we think only of our short term self-interest if we care 
about this river. Support for studying the Eightmile River for possible 
inclusion in the Wild and Scenic River program is broad and deep in all 
three watershed towns. From Boards of Selectmen, to Planning and Zoning 
Commissions, to Wetlands Commissions, to Land Trusts even to Economic 
Development Commissions and even the Historic District Commission in 
one town, our towns speak with one voice about how strongly we feel 
that this is a very unusual and valuable resource, worthy to be listed 
alongside the great rivers of our country. My community and the others 
in the Eightmile watershed stand ready to do the work required to 
support a study and to make use of the information that will be 
developed. Please consider these thoughts and wishes as you weigh the 
merits of H.R. 182. Please help us to gain deserved recognition for 
this very special bit of unspoiled nature that graces my town and that 
we deeply hope will do so for generations to come.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1154A.069
                                 
    Mr. Hefley. Do you have any idea how the private landowners 
along the river feel? The people in town want it, but how about 
the private landowners along the river?
    Ms. Merrow. Well, we have made a significant effort to 
reach out to private landowners. We invited all the private 
landowners with personal invitations to public information 
sessions. Among the 43 letters of support today are letters 
from a number of those private landowners, and some of the 
support has come from surprising quarters, from some of those 
old Yankees that we felt would be highly suspicious of this 
activity, but they have embraced it and I believe that we can 
say that we have very strong support from the private 
landowners.
    Mr. Hefley. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman. I do not really 
have any questions. It is apparent from all of the testimony 
today that both of the areas have put in a lot of time and 
effort over a long period of time, to bring us to the point of 
H.R. 146 and H.R. 182. They appear to have broad community 
support and they certainly have a rich and varied history to 
justify the request. I agree with you that even if there is a 
moratorium for however long, that should not preclude us from 
having studies done.
    I look forward to working with you. I think maybe between 
us we may be able to work with the Administration to support 
these requests.
    Mr. Hefley. Thank you.
    Mr. Simmons?
    Mr. Simmons. Thank you, Mr. Chairman. I think I have taken 
enough of the Committee's time with my questions and comments. 
I think you know where I am coming from, and I appreciate the 
courtesy extended to me and to my friends from eastern 
Connecticut, and I appreciate the courtesy of the Committee.
    Mr. Hefley. Thank you very much.
    Let me ask, Mr. Frohling, in your testimony, you indicated 
that among its other attributes, a segment of the Eightmile 
River is also an outstanding recreational resource. Could you 
describe in greater detail the recreational activities that 
take place on the river, and would Wild and Scenic River 
designation have an adverse impact on the ability of the public 
to continue to engage in these recreational activities? Would 
the designation have any positive impact on the public future 
recreational use of this river?
    Mr. Frohling. It certainly would not have any negative 
impact, and I think it would only have a positive impact, both 
again in terms of the support for the local efforts, to 
continue to shape the future of this watershed, to hold on to 
these recreational resources that we currently have today, and 
to help expand public access to some of the sites. I would say 
that if you can imagine a recreational opportunity, it is there 
on the Eightmile. The ones that stand out--fishing is probably 
the most famous on the Eightmile. It is one of the top trout 
fishing rivers in the State of Connecticut, including 
particularly the native trout that makes it so desirable to 
fishermen.
    But you will also find the full range of boating 
activities, from canoeing and kayaking both, to power and 
sailboating activities in the lower portion of the river, which 
is wider and slower, but you also have lots of hiking and 
biking and sightseeing and birdwatching and all the other kinds 
of activities. We even have snowshoeing and cross-country 
skiing when the snow falls down. There is just about any 
activity you can imagine, in the Eightmile.
    Mr. Hefley. And it would continue to be, if this 
designation was made?
    Mr. Frohling. Absolutely, and I think it would further 
encourage organizations like The Nature Conservancy when we are 
involved and working with willing landowners to protect land, 
to make those lands available for public access, which we are 
beginning to do, and there are already a number of locations in 
the Eightmile that are available to the public. There are two 
large State forests. There is a State park. The Nature 
Conservancy also has three preserves in the Eightmile that are 
open to the public, as well, and it is through these sites and 
others, including land trust properties and so forth, where the 
public can gain access to the river for fishing and hiking and 
so forth.
    Mr. Hefley. Well, all four of you must be good witnesses, 
because you have convinced me that I need to go both to the 
Eightmile River and to Paterson, New Jersey, to see for myself, 
to see if you are telling me the truth. I could do that on the 
Eightmile River better with a fly rod in my hand, I think. That 
would help me understand better what the resources are there.
    Do you have any questions or comments, Mr. Simpson?
    Mr. Simpson. Yes, a couple, Mr. Chairman.
    First of all, is most of the land on the Eightmile River 
currently privately owned?
    Mr. Frohling. Yes.
    Mr. Simpson. Would there be any changes in the current use 
of that land if this designation is made?
    Mr. Frohling. No.
    Mr. Simpson. I appreciate that. The reason I asked that is 
just to show you there are differences between the east and the 
west, to some degree. Whenever you start talking about Wild and 
Scenic Rivers in Idaho, you had better run for cover, because 
we do not want most of those designations because of the 
restrictions they put on. But I understand. I have been there, 
and it is a beautiful area and deserving of preservation, and 
making sure it does not get degraded in the future.
    About the Great Falls Historic District, I am wondering, as 
I read this testimony from Joseph Doddridge, in 1992, $4.147 
million in Urban History Initiative funds to be administered by 
the National Park Service were given to the area with an 
agreement with the city to protect historic resources while 
fostering compatible economic development. Then, in 1996, the 
Great Falls Historic District was authorized for $3.3 million 
in matching grants and assistance to develop and implement a 
preservation and interpretive plan for the district and permit 
development of a market analysis with recommendations of the 
economic development potential of the district. Has all that 
been done?
    Ms. Dopirak. Actually, the latter part, we have not 
received that money. That has only been authorized. It has not 
been appropriated. But we are still continuing to work with the 
National Park Service on the Urban History Initiative.
    Mr. Simpson. Is the reason the $3.3 million in the latter 
part has not been received is that it has not been appropriated 
because it required matching funds and those have not been 
raised yet?
    Ms. Dopirak. No, I do not think so. I believe it just has 
not been appropriated.
    Mr. Simpson. Why do we take it from a National Historic 
Landmark to a part of the Park Service? I mean, does not the 
National Historic Landmark designation protect the area?
    Ms. Dopirak. No, it does not. It only gives it a form of 
protection if Federal funds or State funds were to be used in a 
way that would be detrimental to a protected resource. It does 
not provide the kind of interpretation, preservation and 
educational activities that we believe being a unit of the 
National Park Service would bring to us.
    Mr. Simpson. I guess the reason I ask that is--are we 
trying to just put something into the National Park Service to 
make more funding available for it, so that we can do some 
things? I mean, is that basically the reason we are doing it?
    Ms. Dopirak. I do not think I quite understand your 
question.
    Mr. Simpson. Are we looking at making it a part of the 
National Park System because that would effectively make more 
funds available to do some preservation that you want to do? Is 
that basically the reason?
    Ms. Dopirak. Yes, I think the study would lead us to that 
conclusion, and we believe it is only with the National Park 
Service, who have superior technical expertise and resources 
available, to assist us in making the complete story of the 
historic district known to everyone and assisting us in the 
interpretation of our resources.
    Mr. Simpson. I guess I should express some concern, and it 
is not about this or anything else. In fact, I may support this 
fully. I do not know yet. But we do have a backlog, as has been 
mentioned, in maintenance of our National Park System, and 
there are areas all over this country that you could designate 
as significant historically and so forth. You can go to 
Colorado and I am sure there are mining areas that were 
significant. In Idaho, I know there are areas where events 
occurred that are significant in our history and so forth. If 
we are going to start adding all of these to the park system, 
are we going to soon run out of funds? I mean, when we have 
already got a $4 billion backlog?
    Ms. Dopirak. We think the Great Falls Historic District has 
a different story to tell. I have been in the San Juan 
Mountains of Colorado and I do believe that you have 
interesting stories to tell, and I have seen these old mining 
towns which are literally baking in the sun and they are not 
being protected, and they are deserving of protection, but we 
believe that in Paterson, we tell the story from the beginning 
of this country, and that is a story of national merit. It 
involves very famous people and people who were not famous, and 
it is such a unique story that has such far-reaching 
significance to our Nation that we think it should be told. If 
I might just quote, there was a very nice letter submitted to 
the Committee, and I would like to read one sentence. It was 
submitted by Ed Smyk, who is the Passaic County historian. He 
says "the Great Falls Historic District transcends parochial 
and State concerns, and I do not exaggerate by saying that the 
continued preservation, enhancement and interpretation of the 
district is essential to an understanding of America's 
industrial history," and I think that says it all.
    [The prepared statement of Mr. Smyk follows:]

    [GRAPHIC] [TIFF OMITTED] T1154A.073
    
    [GRAPHIC] [TIFF OMITTED] T1154A.074
    
     [GRAPHIC] [TIFF OMITTED] T1154A.075
    
    [GRAPHIC] [TIFF OMITTED] T1154A.076
    
    [GRAPHIC] [TIFF OMITTED] T1154A.077
    
    [Additional materials supplied for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T1154A.052
    
    [GRAPHIC] [TIFF OMITTED] T1154A.053
    
    [GRAPHIC] [TIFF OMITTED] T1154A.054
    
    [GRAPHIC] [TIFF OMITTED] T1154A.055
    
    [GRAPHIC] [TIFF OMITTED] T1154A.056
    
    [GRAPHIC] [TIFF OMITTED] T1154A.057
    
    [GRAPHIC] [TIFF OMITTED] T1154A.070
    
    [GRAPHIC] [TIFF OMITTED] T1154A.071
    
    [GRAPHIC] [TIFF OMITTED] T1154A.072
    
    [GRAPHIC] [TIFF OMITTED] T1154A.078
    
    [GRAPHIC] [TIFF OMITTED] T1154A.079
    
    [GRAPHIC] [TIFF OMITTED] T1154A.080
    
    [GRAPHIC] [TIFF OMITTED] T1154A.081
    
    [GRAPHIC] [TIFF OMITTED] T1154A.082
    
    [GRAPHIC] [TIFF OMITTED] T1154A.083
    
    [GRAPHIC] [TIFF OMITTED] T1154A.084
    
    [GRAPHIC] [TIFF OMITTED] T1154A.085
    
    [GRAPHIC] [TIFF OMITTED] T1154A.086
    
    [GRAPHIC] [TIFF OMITTED] T1154A.087
    
    [GRAPHIC] [TIFF OMITTED] T1154A.088
    
    [GRAPHIC] [TIFF OMITTED] T1154A.089
    
    [GRAPHIC] [TIFF OMITTED] T1154A.090
    
    [GRAPHIC] [TIFF OMITTED] T1154A.091
    
    [GRAPHIC] [TIFF OMITTED] T1154A.092
    
    [GRAPHIC] [TIFF OMITTED] T1154A.093
    
    [GRAPHIC] [TIFF OMITTED] T1154A.094
    
    [GRAPHIC] [TIFF OMITTED] T1154A.095
    
    [GRAPHIC] [TIFF OMITTED] T1154A.096
    
    Mr. Simpson. Well, thank you, and thank all of you for your 
testimony, and I look forward to working on this legislation. 
My only question is was it Colt, the gun that won the west, or 
was it Winchester?
    Ms. Dopirak. I think it was Colt.
    Mr. Simpson. See, I thought it was the repeating rifle at 
Winchester. Thank you.
    Mr. Hefley. Well, we certainly cannot act on that 
legislation till we get an answer to that. Thank all of you. It 
was excellent testimony and we appreciate you taking time to do 
it. This Committee stands adjourned.
    [Whereupon, at 3:56 p.m., the Subcommittee was adjourned.]


</pre></body></html>
